w-

STATE OF SOUTH DAKOTA'*^
MINNEHAHA COUNTY /
I hereby certify that the forepoine
initrument is a true and correct copy
of the original os the same appears .
on recorain m.y office.

r
i > ‘

r ■

IN CIRCUIT COURT

STATE OF SOUTH DAKOTA
Clerk of Courts, Minnetahi bounty

•

SECOND JUDICIAL CIRCUIT

COUNTY OF MINNEHAHA

No.

\ STATE OF SOUTH '.DAKOTA,f"
Plaintiff

5^45
. BENCH ORDER

)
) :
)

Defendant

_ $Q
*#//
JUDGMENT OF CONVICTl6^/^0c
AND PENITENTIARY SENTENCE °°rcfs

' lA'. '-jo*-,

Defense:

Prosecutor:

ony

rime:

n^gvTcJCD^Oof <
SDCL. cite:

;20lk:c

-2 2 -

Habitual Offender: 22-7-

Date of Sentenc,

Crime Qualifier: (check if applicable)
_ accessory 22-3-5 __ aiding or abetting' 22-3-3
conspiracy 22-3-8 __ solicitation 22-4A-1

attempt 22-4-1

^by ORDERED that the Defendant is sentenced to serve:

?5

in the SD State Penitentiary

months

FJsuspended and

with

days credit for jail time

Check if penitentiary term is a condition of:
suspended imposition of sentence or
suspended execution of sentence
concurrent or

consecutive with

This BENCH ORDER JUDGMENT OF CONVICTION AND SENTENCE may be followed
by an Amended Judgment of Conyiction and.Sentence with more details.

:QnT>^ 2$fATTEST:

ANQEUA M.GRIES
CLERK OF COURTS

CIRCUIT JUDGE

By: M AaWXj

(MAG 2008)
•j

[ DEC 2 1 2011
C3s
Mi-nn^Vinha Countv. S.D.

APPENDIX
A
<i

7

}lh]0-J
,SuVl~fe
STATE OF SOUTH DAKOTA

)
: SS

IN CIRCUIT COURT

COUNTY OF MINNEHAHA

)

SECOND JUDICIAL CIRCUIT
SHR 200911733

STATE OF SOUTH DAKOTA,
Plaintiff,

CR. 49C10005422 A0

vs.

JUDGMENT & SENTENCE

HAIDER SALAH ABDULRAZZAK^ ”
Defendant.

An Indictment was returned by the Minnehaha County Grand Jury on September 9 2010
charging the defendant with the crimes of Count I Possess, Manufacture or Distribute Child Pornography
on or about December 29, 2009; Count II Possess, Manufacture or Distribute Child Pornography on or
about December 29, 2009; Count III Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count IV Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count V Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count VI Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count VII Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count VIII Possess, Manufacture of Distribute Child Pornography on or about
December 29, 2009; Count IX Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count X Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count XI Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count XII Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count XIII Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009; Count XIV Possess, Manufacture or Distribute Child Pornography on or about
December 29, 2009. The defendant was arraigned upon the Indictment on September 15 2010 Ryan
Kolbeck appeared as counsel for Defendant; and, at the arraignment the defendant entered his plea of not
guilty of the charges in the Indictment. The case was regularly brought on for trial, Ryan Sage Deputy
State’s Attorney appeared for the prosecution and, Mike Hanson, appeared as counsel for the defendant
A Jury was impaneled and sworn on June 28, 2011 to try the case. The Jury, after having heard the
evidence produced on behalf of the State of South Dakota and on behalf of the defendant on June 30,
2011 returned into open court in the presence of the defendant, returned its verdict: “We the Jury find the
defendant, HAIDER SALAH ABDULRAZZAK, guilty as charged as to Count I Possess, Manufacture or
Distribute Child Pornography (SDCL 22-24A-3); guilty as charged as to Count II Possess Manufacture
or Distribute Child Pornography (SDCL 22-24A-3); guilty as charged as to Count III Possess
Manufacture of Distribute Child Pornography (SDCL 22-24A-3); guilty as charged as to Count IV
Possess, Manufacture or Distribute Child Pornography (SDCL 22-24A-3); guilty as charged as to Count
V Possess, Manufacture or Distribute Child Pornography (SDCL 22-24A-3); guilty as charged as to
Count VI Possess, Manufacture or Distribute Child Pornography (SDCL 22-24A-3)- guilty as charged as
to Count VII Possess, Manufacture or Distribute Child Pornography (SDCL 22-24A-3); guilty as charged
as to Count VIII Possess, Manufacture or Distribute Child Pornography (SDCL 22-24A-3); guilty as
charged as to Count IX Possess, Manufacture or Distribute Child Pornography (SDCL 22-24A-3)- guilty

)

Abdulrazzak_Haider_ 10-5422
Page I of 3

w
)

I

iO-SHd^

as charged as to Count X Possess, Manufacture or Distribute Child Pornography (SDCL 22-24A-3);
guilty as charged as to Count XI Possess, Manufacture or Distribute Child Pornography (SDCL 22-24A3); guilty as charged as to Count XII Possess, Manufacture or Distribute Child Pornography (SDCL 2224A-3); guilty as charged as to Count XIII Possess, Manufacture or Distribute Child Pornography (SDCL
22-24A-3); guilty as charged as to Count XIV Possess, Manufacture or Distribute Child Pornography
(SDCL 22-24A-3).” The Sentence was continued to December 20, 2011, after completion of a
presentence report.
Thereupon on December 20, 2011, the defendant was asked by the Court whether he had any legal
cause why Judgment should not be pronounced against him. There being no cause, the Court pronounced
the following Judgment and
SENTENCE
AS TO COUNT I POSSESS, MANUFACTURE OR DISTRIBUTE CHILD PORNOGRAPHY :
HAIDER SALAH ABDULRAZZAK shall be imprisoned in the South Dakota State Penitentiary, located
in Sioux Falls, County of Minnehaha, State of South Dakota for three (31 years with credit for one
hundred eighty (180) days previously served and with two (2) years of the sentence suspended on the
condition that the defendant not be in the presence of anyone under the age of fifteen (15) without another
adult (21 years or older) present for a period of ten (10) years after released from custody.
AS TO COUNT II POSSESS, MANUFACTURE OR DISTRIBUTE CHILD PORNOGRAPHY :
HAIDER SALAH ABDULRAZZAK shall be imprisoned in the South Dakota State Penitentiary, located
in Sioux Falls, County of Minnehaha, State of South Dakota for three (3) years with two (2) years of the
sentence suspended on the condition that the defendant not be in the presence of anyone under the age of
fifteen (15) without another adult (21 years or older) present for a period of ten (10) years after released
from custody.
AS TO COUNT III POSSESS, MANUFACTURE OR DISTRIBUTE CHILD PORNOGRAPHY :
HAIDER SALAH ABDULRAZZAK shall be imprisoned in the South Dakota State Penitentiary, located
in Sioux Falls, County of Minnehaha, State of South Dakota for three (31 years with two (2) years of the
sentence suspended on the condition that the defendant not be in the presence of anyone under the age of
fifteen (15) without another adult (21 years or older) present for a period of ten (10) years after released
from custody.
AS TO COUNT IV POSSESS, MANUFACTURE OR DISTRIBUTE CHILD PORNOGRAPHY
: HAIDER SALAH ABDULRAZZAK shall be imprisoned in the South Dakota State Penitentiary,
located in Sioux Falls, County of Minnehaha, State of South Dakota for three (3) years with two (2) years
of the sentence suspended on the condition that the defendant not be in the presence of anyone under the
age of fifteen (15) without another adult (21 years or older) present for a period of ten (10) years after
released from custody.
AS TO COUNT V POSSESS, MANUFACTURE OR DISTRIBUTE CHILD PORNOGRAPHY :
HAIDER SALAH ABDULRAZZAK shall be imprisoned in the South Dakota State Penitentiary, located
in Sioux Falls, County of Minnehaha, State of South Dakota for three (3) years with two (2) years of the
sentence suspended on the condition that the defendant not be in the presence of anyone under the age of

, 00086

Abdulrazzak_Haider_l 0-5422
Page 2 of 3

p

lO- 5M30

W

;

fifteen (15) without another adult (21 years or older) present for a period of ten (10) years after released
from custody.

i

AS TO COUNT VI POSSESS, MANUFACTURE OR DISTRIBUTE CHILD PORNOGRAPHY
: HAIDER SALAH ABDULRAZZAK shall be imprisoned in the South Dakota State Penitentiary,
located in Sioux Falls, County of Minnehaha, State of South Dakota for three (31 years with two (2) years
of the sentence suspended on the condition that the defendant not be in the presence of anyone under the
age of fifteen (15) without another adult (21 years or older) present for a period of ten (10) years after
released from custody.
AS TO COUNT VII POSSESS, MANUFACTURE OR DISTRIBUTE CHILD PORNOGRAPHY
: HAIDER SALAH ABDULRAZZAK shall be imprisoned in the South Dakota State Penitentiary,
located in Sioux Falls, County of Minnehaha, State of South Dakota for three (3) years with one (1) year
of the sentence suspended on the condition that the defendant not be in the presence of anyone under the
age of fifteen (15) without another adult (21 years or older) present for a period of ten (10) years after
released from custody.
AS TO COUNT VIII THROUGH COUNT XIV : the-Court pronounced no official sentence.
It is ordered that these Counts are to run consecutively to each other.
The Court finds that each Count for which the defendant is convicted consist of separate
transactions.
The defendant shall be returned to the Minnehaha County Jail following court on the date hereof,
to then be transported to the Penitentiary; there to bd kept, fed and clothed according to the rules and
discipline governing the South Dakota State Penitentiary.
Dated at Sioux Falls, Minnehaha County, South Dakota, thi

IL3L

day of January, 2011.

BY THE COURT:

JAN 2 0 2012
PATTEST: K

\angeliam. GRIES, Clerk

Mmr :.G.ahE County, S.D.
Clark Circuit Court

JUDGE PETER H. LIEBERMAN
Circuit Court Judge

'^Deputy

00085

Abdu!razzak_Haider_l 0-5422
Page 3 of 3

IN THE SUPREME COURT

SUPREME COURT
STATE OF SOUTH DAKOTA

FILED
JAN 1 4 2013

OF THE
STATE OF SOUTH DAKOTA
* ★ * *

STATE OF SOUTH DAKOTA,
Plaintiff and Appellee,
vs.
HAIDER SALAH ABDULRAZZAK,
Defendant and Appellant.

)
)
)
)
)
)
)
)

Cleric
ORDER DIRECTING ISSUANCE OF
JUDGMENT OF AFFIRMANCE
#26274

The Court considered all of the briefs filed in the
above-entitled matter,..together with the appeal record, and concluded
pursuant to SDCL 15-26A-87.1 (A), that it is manifest on the face of
the briefs and the record that the appeal is without merit on the
following grounds: 1. that the issues on appeal are clearly
controlled by settled South Dakota law or federal law binding upon the
states, 2. that the issues on appeal are factual and there clearly is
sufficient evidence to support the jury verdict, and 3. that the
issues on appeal are ones of judicial discretion and there clearly was
not an abuse of discretion (SDCL 15-26A-87.1(A)(1),(2) and (3)), now,
therefore, it is
;
ORDERED that a judgment affirming the Judgment of the
circuit court be entered forthwith.
DATED at Pierre, South Dakota, this 14th day of January,
2013 .

/

BY THE COURT:

ATTEST:
David Gilbertson, Chief Justice
Clei

t

Supreme Court
<SEAL)

APPENDIX

PARTICIPATING: Chief Justice David Gilbertson, Justices John K. Konenkamp,
Steven L. Zinter, Glen A. Severson and Lori S. Wilbur.

B

CIRCUIT COURT OF SOUTH DAKOTA
SECOND JUDICIAL CIRCUIT
425 N. Dakota Avenue
Sioux Falls, South Dakota 57104
Telephone (605) 367-5920
Fax Number (605) 367-5979
JUDGE JOSEPH NEILES
March 17,2017
Julie Hofer
Office of the Public Advocate
415 N. Dakota Ave.
Sioux Falls, SD 57104

Judith Ziegler Wehrkamp
Deputy States Attorney
415 N. Dakota Ave.
Sioux Falls, SD 57104

Re: Haider Salah Abdul-Razzak vs. Robert Dooley, Warden of the Mike Durfee
State Penitentiary, Respondent. CIV 13-2004 (Habeas)
Dear Counsel:
n u
*S a ,^a^eas Corpus proceeding. The petitioner is an inmate in the South
Dakota State Penitentiary, apparently currently housed at the facility in Springfield, SD.
He was sentenced to the Penitentiary in Minnehaha County Cr. 10-5422 as a result of his
cZ™!i0nS m front of a
for 14 counts of Possession, Manufacturing or Distribution
of Child Pornography, in violation of SDCL 22-24A-3. He was represented in the case at
trial by attorney Mike Hanson, an attorney in private practice here in Sioux Falls, retained
by the defendant. Then Circuit Judge Peter Lieberman (now retired) sentenced the
petitioner to three years in the Penitentiary with two years suspended on each of the first
six counts of the Indictment, imposed three years in the penitentiary with one year
suspended on count seven and imposed no sentence on counts eight through fourteen.
t a
T^.ei^ant received credit for 180; days in jail already served up until that point.
Judge Lieberman ordered the sentences to be consecutive, in effect causing the defendant
to be facing a sentence of eight years in the penitentiary, with an additional 13 years
suspended.
This
.,
.. judgment and sentence was appealed to the South Dakota Supreme Court,
(the petitioner was represented by the Public Defender for the appeal) and the Court did
sununarily affirm the judgment in an order signed by the Chief Justice on January 14,
2013. It is claimed by present counsel for the petitioner that the issues in this direct
appeal related to (1) sufficiency of the evidence; and (2) a claim that the sentence
imposed was excessive.
It would appear that the petitioner at some point was granted parole, and then was
charged with some parole violation, as the file reflects that attorney Aaron Salberg was
i

r
APPENDIX
C

appointed by the Circuit Court to represent the for a parole violation in late 2016. No
order appointing counsel appears in the file but the file does reflect that Circuit Judge
Larry Long was contacted by the Parole Board to appoint a lawyer for that proceeding,
and Judge Long apparently scrawled Salberg’s name across the top of the application
form. It is unknown why Judge Long would have appointed Salberg when the Public
Advocate was already representing the petitioner in this matter. There is no evidence in
mis record regarding whether the petitioner was granted parole or when he might have
been granted parole, or whether his parole was revoked at some earlier proceeding, or
whether his suspended sentence was ever imposed. The Warden here has not raised the
issue of whether this Habeas proceeding would have been moot because the petitioner
had been released on parole, and I assume that had the petitioner been not in custody, this
petition would have been subject to dismissal. See Bostick v. Weber, 2005 SD 12 692
N.W.2d 517.
Petitioner initially submitted his petition “pro se” and asked for court-appointed
counsel. The pro se petition raised 75 different points which he described as issues
Many related to complaints about the work his lawyer did or did not do in representing
him at the trial. However, eventually in April of 2014 Ms. Hofer, representing the
petitioner here, filed an Amended Application for a Writ of Habeas Corpus. I consider
this Amended Petition to “preempt” the original petition, in effect setting those initial
claims aside and raising only the issues spelled out in the new Petition. This Amended
Petition raised the following issues:
(1) Trial counsel was ineffective for his failure to file a motion to suppress the
statements made by the petitioner while being interrogated by the officers,
claiming that he was subjected to a custodial interrogation without the Miranda
warnings.
(2) Trial counsel was ineffective for not file a motion to suppress the statements made
during the interview because the petitioner did not understand the language line
interpreter’s interpretation of the officer’s questions.
(3) Petitioner did not understand the interpreter used during the trial, as he was
Egyptian and petitioner was Iraqi, and they speak with different Arabic dialects.
He claims he told his lawyer of this problem but trial counsel did not address it.
(4) Trial counsel failed to provide effective assistance of counsel by his failure to
investigate a potential alibi claim regarding the dates and times that the child
pornography was being accessed, downloaded and viewed.
(5) Petitioner was denied effective assistance of counsel by his lawyer’s failure to
make a motion for disclosure of other acts evidence, and failed to object to “other
acts evidence” offered during the trial by the state.
(6) Petitioner was denied effective assistance of counsel by his trial counsel’s failure
to object to the prosecutor improperly vouching for his witness by stating that the
Many of die issues raised by petitioner in this initial petition are totally without merit, as they clearly relate
to trial tactics that a lawyer might decide to pursue, or they are raising issues that have no legal validity, or
they dp not rise to the level of a constitutional violation, and therefore are not cognizable through a Habeas

Detective was “honest”. He further asked the jury who had a motive to lie, and
stated that the detective had no motive to lie.
(7) Petitioner was denied effective assistance of counsel by his trial counsel’s failure
to have the hard drive reviewed by an expert. She claims this failure to have it
reviewed by an expert resulted in two more images that were not charged out
being shown to the jury.
As a result of this Amended Petition, Circuit Judge Patricia Riepel issued a
provisional Writ of Habeas Corpus in April of 2014
After service of the Writ, the Warden through the Minnehaha County States
Attorney’s Office filed a return to the Writ. Among other claims, counsel asserted
that some if not all of these claims could have been raised in direct appeal, and since
they were not, they were waived. Also, the Warden asserts that some of the issues
were not preserved because no objection was raised at trial. Otherwise, the Warden
generally denies the claims of the petitioner. I consider claims of ineffective
assistance of counsel to generally not waived by a defendant in his direct appeal, as
the Supreme Court has clearly indicated that a direct appeal is a poor vehicle for such
claims absent some gross violation, and generally filing those claims as part of a
Habeas proceeding allows trial counsel to testify and answer questions about why
they did what they did. And pretty much by definition, “ineffective assistance of
counsel” means that trial counsel did not object at trial to the evidence, and so I don’t
consider that a valid objection to the petition here.
At the hearing on the petition, which started on September 20, 2016 before this
court, attorney Michael Hanson was called to testify. He said he was retained by the
petitioner after he was initially appointed the Public Defender. He said the case had
been delayed several times by the PDO. He noted that the PDO had retained a
computer expert to assist them in looking at the computer, and Hanson spoke with the
lawyers from the PDO that had been representing the petitioner, and reviewed the
expert’s findings, and also talked to the expert personally. He said the case involved
two computers plus an external hard drive. The expert said that Lime Wire had been
installed on the computer and then deleted. He said that all of the images in the
computer had been deleted, and were only found in the hard drive. He was able to
determine when the computer was used. He said that Law.Enforcement had not been
able to access all of this because of the Arabic coding involved. It was his opinion
that it appeared that as soon as the Petitioner arrived in the United States that the
computer was used to access pornography sites, in New York and again in Chicago,
and then in Sioux Falls. He told Hanson that he had found deleted images and other
child pornography that law enforcement had not found. He did not prepare a formal
report as to his findings because then he would have had to disclose all of these
findings in the report (and presumably that information would have been harmful to
the petitioner’s case). Hanson testified that if was his judgment call not to produce
this expert during the trial for fear that som4 of this harmful evidence would have
been disclosed.
3

Hanson said that it was his understanding from talking to petitioner that he had
bought the computer in Syria as well as the hard drive. He said there were no laws
against visiting pom sites in Syria. The defendant said that the computer had
LimeWire when it was purchased, and he used it one time and then deleted it. He
also told Hanson that there were times that friends came to his apartment that might
have had access to his computer. The roommate testified at the trial that the night in
question they had a party and other Iraqis were present, and the computer was not
password protected.
He said during the trial that it came to light there were a huge number of images
that had not been disclosed to the defense, and so he asked the trial judge for time to
review this information, and Judge Lieberman gave him two hours. His secretary said
this was a massive download of images to the hard drive. He noted among the images
downloaded was an application for heating assistance and a resume.
As far as the statements taken from the petitioner, he said he reviewed them at the
time and thought there might be an issue of voluntariness. It was his understanding
that the petitioner and his roommate may have been handcuffed at some point during
the police interview, and certainly had been told they were not free to leave. He said
also the issue of the use of Language Line as an interpreter was discussed.
He also testified that he met with the state’s computer expert and the prosecutor
came along. The prosecutor told him there were many other images, although some
were questionable as to whether it was child pornography. Hanson noted that he
never had any trouble communicating with the petitioner during the time he was
involved in the case. He never had to use an interpreter. He acknowledged that
Petitioner did tell him that the interpreter provided was Egyptian, not Iraqi. But he
put in context of not “trusting” the Egyptian, not that he could not understand him.
The judge held a hearing on this issue and asked the interpreter if there were different
dialects of Arabic, and the interpreter said that there were not. He concluded that the
petitioner fully understood everything that was being said, even if he did not fully
understand the intricacies of the American Legal System.
He acknowledged that he filed no motions on behalf of the petitioner. He
subpoenaed three witnesses for the petitioner for the trial. The roommate was
actually called as a witness by the prosecution. Hanson said he had subpoenaed a
person from LSS, but LSS raised a stink about that. The witness did appear, but did
not have much to say that would have been helpful and was not called, I think.
Hanson claimed he did not want to make a motion to discover specific items on
the computer that it might open the door to additional criminal charges. He said he
did not make a motion to keep out those other images at the trial, and admitted in
hindsight that it would have been good to keep those images from the jury. He did
not make a motion regarding other acts evidence because he thought if the state
4

intended to introduce such evidence they would have to give him notice regarding that
intent.
Basically, Hanson said it was a judgment call by him as to how he was going to
treat the evidence. There defense was that his client was not aware of these images on
his computer. He was concerned throughout that additional evidence his computer
expert had found might come out that would have harmed their case further, and so
was stepping lightly on some of these issues.
Petitioner also testified at the hearing. He testified that he arrived in the United
Sta*^ in June of 2009 after fleeing from Iraq on February 24, 2008, and was first
visited by the detectives in December of 2009, at his residence here in Sioux Falls.
He became aware of the police investigation when his roommate got a phone call, but
apparently they did not understand what was going on so they called another
individual who spoke both English and Arabic, and learned that the police were at
their home and they needed to go home. Petitioner said that he called his case worker
from LSS and met him at their apartment.
Once at their apartment they discovered the police were already inside, and the
LSS case worker was there waiting for them. They asked the case worker to translate
for them, but the police officers would not let the case worker enter. They (petitioner
and his roommate) entered the apartment and the detectives were questioning them.
At the time, petitioner was in the process of studying English and was seeking a GED.
He acknowledged he knew some English words but did not fully understand the
meaning of all of the words being said. The officers directed them where to sit. He
noted there were 4-5 people in the apartment including one person he believed to be
an Immigration agent for the Federal government. After a short while the roommate
was directed to move to sit next to petitioner on their couch. The police officers
obtained an interpreter, but petitioner claims he had a hard time understanding the
dialect used by that interpreter. He claimed that Arabic varies from country to
country, and a particular word may have a different meaning depending upon the
country.
He believed that he was told he was not under arrest, and believes he was told he
did not have to speak to the detectives, but in his home country of Iraq refusing to
speak to the officers would be problematic. He mentioned the corruption there of the
officers. Despite what he had been told by the officers, he did not feel he had the
freedom to get up and leave the apartment at that time. Petitioner represented he told
Mr. Hanson all of this plus told him that he was not comfortable with the use of the
Egyptian interpreter, as he could not fully understand him.
In addition, he testified to some of his other issues that he had with the case. He
talked about the circumstances of purchasing the computer and having the computer
with him on the border with Syria. He said some of the images do not have a time
stamp, and when they were uploaded or viewed was mere speculation by the

prosecution. He believed that the 287 thumbnails were copied from another computer
into the external hard drive. He said he removed the Lime Wire from his computer in
October, 2009.
He also complained that the prosecutor tried to use his religion against him, but
e judge ruled in petitioner’s favor, but the jury was not properly instructed to
disregard these comments.
He also expressed concern that Mike Hanson never talked to his roommate before
the trial, and claims he gave Hanson the names of 10 people that had been in his
apartment and might have had access to the laptop, although he could no longer
remember their names at the time of his testimony, noting he suffered from PTSD.
Overall, he claims that he was framed for this offense.
The hearing was recessed to allow attorney Michelle Thomas to testify on behalf
of the Warden. She has worked for the Minnehaha County Public Defender’s Office
since January of 2004, and so at the time she was initially appointed to represent the
petitioner she had about 6 years of experience in criminal defense work. She testified
that she first met with the petitioner on 1/6/11, and then appeared with him on 1/19/11
and asked for a further delay in the hearing to consult with a computer expert (Dan
Meinke). On 3/1/11 she met with Meinke and noted that the information she had was
that the petitioner had arrived in the United States of 6/29/09, and the first file in the
computer was created on 6/30/09, which meant that this computer was being used to
download child pornography right after entry into the United States. She also noted
that it was her understanding that the deleted images in the hard drive indicated about
500 files were recovered containing apparent child pornography.
She said that petitioner joined her in a meeting with Meinke, and it was noted that
there was a lot of child pom that had been downloaded into the computer over several
months. In exhibit #9, her notes from her representation, she noted that petitioner had
a roommate, but that roommate had his own computer and would not use petitioner’s
computer. She also testified that had she used an interpreter in her conversations and
meetings with interpreter, she would have made a note about that in her personal
notes. She did not file any suppression motion regarding any of the state’s evidence,
admitting that had she seen any legitimate issues to raise she would have filed such a
motion.
In cross-examination, she noted that she had taken over the case from Bryan Hall,
another Public Defender lawyer who was leaving the office. She acknowledged that
her notes do not reflect any discussion with petitioner regarding his interview with
law enforcement. She did have notes reflecting that she did receive a CD that was
represented to be petitioner’s interview with law enforcement, but it turned out to be
another individual on the CD, not the petitioner. In response she had emailed the
prosecutor requesting the correct CD, but did not note whether she ever received one.

And then Mike Hanson took over the case in early March of 2011 and her
involvement ended.
In cross-examination by the court she acknowledged that over time she has had
from time to time issues with defendants who are Arabic speaking but do not
understand the dialect of the interpreter being used by the court.
After this testimony I listened to the arguments of counsel, and also allowed the
petitioner to again address the court about his separate issues, but I was primarily
concerned about his complaints about his representation by counsel, and his view on
that. As noted above, when the Amended Petition was filed, any issues not raised
there were considered to be waived.
LAW, ANALYSIS AND DECISION
The petitioner has raised a large number of issues concerning this case and his
representation by counsel. All of the issues, one way or another, come down to a
claim of ineffective assistance of counsel. I would, for purposes of discussion here,
regroup the issues into four main categories:
First, complaints about counsel’s failure to move to suppress statements made by the
defendant to law enforcement officers, based upon 1) failure to comply with Miranda;
2) failure to provide an appropriate inteipreter for the petitioner.
Second, complaints about counsel’s failure to explore an alibi Haim
Third, complaints about counsel’s failure to discover and move to suppress “other
acts” evidence, that is, the other images on the computer not charged out in the
indictment but shown to the jury during the trial.
Fourth, complaints about counsel’s failure to object to the prosecutor’s vouching for
the credibility of the detective during argument.
Some of these issues are relatively easy to resolve. It appears to me from the
petitioner’s own testimony that he was told by the officers at the scene that he was not
under arrest and did not have to speak to them. Apparently petitioner, because of his
background in living in Iraq, did not believe the officers and was intimidated by them.
That is not, in my view, sufficient to cause me to conclude that this was a custodial
interrogation. I believe the test is whether a reasonable person would have concluded
that they were under arrest or otherwise being detained, and under that subjective test
I would conclude that petitioner was not “in custody” and so therefore no Miranda
was necessary.
The second part of that issue, regarding the issue of the interpreter, is defeated by
the testimony of Mr. Hanson. I would certainly conclude from the testimony that
7

there are potential differences from country to country in the Arabic world regarding
the use and definitions of certain words, and the meanings can be confusing. That is
certainly true in the English speaking world (As an example, in England what we
describe as an elevator is called a “lift”). But a general statement about some
confusion about a few words use is not sufficient to cause me to throw out these
convictions. Petitioner would have needed to be much more specific, pointing to
words that he said and how those words were misinterpreted by the interpreter. In
addition, he should have presented expert testimony that an Arabic speaker from
Egypt would use a particular word one way, and an Arabic speaker from Iraq would
use it a different way, and then point out how that affected this case. There is simply
not enough evidence on this point to cause this court to conclude that this issue rises
to a constitutional level.
The second major claim, in my view, is that petitioner claims ineffective
assistance because his lawyer did not fully explore an alibi claim. The problem with
this claim is pointed out by Ms. Thomas testimony. The examination of the computer
by the defense expert showed that child pom was being downloaded into this
computer within 24 hours of the petitioner arriving in the United States, and
continued apparently from time to time over the next six months or so. This possible
defense was going to go nowhere, and may have actually resulted in the prosecution
discovering additional damaging information about this case, perhaps resulting in
additional criminal charges.
The third area of concern relates to the other acts evidence. Apparently trial
counsel did not seek to have the prosecution disclose “other acts” evidence ahead of
time and did not seek to exclude or suppress that evidence. Mr. Hanson thought that
the prosecution would have to give advance notice of intent to use such evidence. I
would agree that this was error on the part of Mr. Hanson. He should have moved the
court ahead of time for an order directing the state to disclose such evidence if they
intended to use any, and once disclosed, he should have moved to keep such evidence
out. However, it is uncertain whether the trial judge would have granted that request,
or perhaps only granted it partially. The trial judge would have had to balance the risk
of “unfair prejudice” under Rule 403 with the permitted uses under 404 (b)(2), such
as to show knowledge, absence of mistake or lack of accident, and intent and
preparation and plan, perhaps. It might be that the trial judge would have permitted
the use of some of this evidence, but not all.
The fourth area of concern would be the improper “vouching” for the credibility
of the states’ witness by the prosecutor. The transcript shows that Deputy States’
Attorney Sage did on several occasions vouch for the credibility of his witness and his
evidence, and express disbelief at the claims of the defendant, accusing him of being
less than truthful.
During the closing argument, Mr. Sage visited this area several times. On page
64, lines 9-20 he said the defendant was arguing that other people had access to his

computer and could have downloaded these images, and then a moment later in his
argument points to evidence which he thinks is inconsistent with that claim. I agree
he was attacking the defendant’s credibility, but I don’t find anything at this point
seriously wrong with this particular point in the argument.
He continued to attack the credibility of the defendant on page 71, lines 18-24.
Again, while he is attacking the credibility of the defendant, I find no error here, as he
is basically arguing that the jury will find the defendant to be not believable when
they analyze the evidence as he suggests. He then again attacked the defendant more
directly, arguing he was not telling the truth during his testimony, in the arguments
made on page 74. On line 10, Mr. Sage said: “He lied to you”. That was improper. It
came across as Mr. Sage’s opinion on the credibility of the defendant, and this is an
area where the prosecutor must not go. There was no objection from defense counsel,
however.
On page 76, Mr. Sage began to talk about the law enforcement officers, talking
about how they entered and tried to document everything and they are not on a witch
hunt (lines 6-9). And then, on line 13, in talking about Det. Kuchenreuther, he states
He is honest”. This is clearly improper argument, but again, there was no objection
from defense counsel. Mr. Sage then asks the question “Who has a motive to lie
here? (lines 14-15) I think this question to be borderline improper, mostly because
he is not expressing his opinion about it directly, but rather asking the jury to answer
that question. But it was troublesome when it followed the other, earlier statements
mentioned above. And again, there was no objection to this statement either.
In State v. Goodroad, 455 N.W.2d 591 (SD 1990) the defendant was being
prosecuted on drug charges in Hughes County. Another individual, Feeney was
arrested and was prosecuted for a felony marijuana possession charge, and as part of
his plea bargain he was to name the persons with whom he had trafficked drugs.
Goodroad was identified as his main source.
At Goodroad’s trial, a law enforcement officer was allowed to testify that Feeney
had promised to testify truthfully as part of the plea bargain, and if he lied about
anything he could be prosecuted further. This was all before Feeney himself had
testified. Feeney also made more or less the same claim in his testimony as well.
Then, during closing arguments the prosecutor argued that Feeney had staked his
freedom on telling the jury the truth. The South Dakota Supreme Court noted that the
Ninth Circuit Court of Appeals had held this type of testimony to be improper, citing
a United States Supreme Court decision from 1958.
Clearly, here, the prosecutor went too far in at least some of his argument. But,
that is not the issue before the court. This Habeas Court only can consider this trial
error if it rises to the level of “ineffective assistance of counsel” thereby making it a
constitutional error.

The test to then be applied is spelled out in Strickland v. Washington, 466 U.S.
668, 687, 104 S.Ct. 2052, 2064, 80 L.Ed.2d 674 (1984): “the defendant must show
that ...counsel made errors so serious that counsel was not functioning as the
‘counsel’ guaranteed the defendant by the Sixth Amendment (to the United States
Constitution) and that ‘counsel’s errors were so serious as to deprive the defendant of
a fair trial, a trial whose result is reliable.” This test was long ago adopted in South
Dakota, and has been reaffirmed many times. In order to meet this burden, a
petitioner must show that his lawyer’s performance was not objectively reasonable
under prevailing professional standards, and, that absent the deficient performance,
there is a reasonable probability that the result of the proceeding would have been
different. Applying these standards to the present case, while I acknowledge that
errors were made by counsel, I don’t believe even if counsel had handled properly the
issue of tire other acts’ evidence, and even if counsel had handled properly the issues
surrounding the improper vouching of witnesses by the prosecutor, that these changes
would have made any difference in the outcome of the case. A defendant is entitled
to a fair trial, not a perfect trial.
In the high-profile murder trial of Daphne Wright, held here in Minnehaha County
in 2007, (State v. Wright, 2009 SD 51,768 N.W.2d 512) the defendant was deaf, and
required an interpreter throughout all court proceedings. She was ultimately
convicted, and among her issues in the appeal was her claim that she should have
been provided with a certified deaf interpreter (CDI) as well as consecutive
interpretation. Prior to trial, a psychologist conducted an evaluation of Wright and
noted that while her non-verbal IQ was 114 to 117, there was the possibility of brain
damage given her low ability to read. He said she had a good grasp of American Sign
Language (ASL) but there were many legal terms for which there were no signs. He
thought it would be difficult to communicate many legal concepts to her. He
recommended the court have the testimony interpreted to Wright consecutively rather
than simultaneously. He thought using “real time” captioning where she could read
the testimony as the court reporter typed it would be of little use because of her
limited comprehension levels. After the trial court denied consecutive interpretation,
Wright moved the court to use a CDI, which is an interpreter who is deaf or hard of
hearing. Using this method, the interpretation would pass from a hearing person to a
hearing interpreter, and then to a deaf interpreter, who in turn interprets for the
defendant. In support of their request for this specialized interpretation, counsel for
the defense presented testimony from a Professor from the University of Wisconsin
Law School that Wright did very well with ASL in casual conversation, but when they
tried to talk about the case it was like hitting a brick wall.
Despite all of this the trial judge denied the consecutive interpretation and denied
the CDI for the courtroom testimony. The trial court allowed the CDI to be used
outside the courtroom, and provided five Level Five certified ASL interpreters to both
interpret and assist in helping Wright to understand, plus real time captioning. The
trial was also videotaped, capturing the ASL interpreting for Wright. In addition,
daily DVD’s were provided for Wright’s review every evening. Then, in the morning
10

before the trial started up again, defense counsel and Wright could bring to the
attention of the court any problems arising through these efforts. Finally, Wright was
permitted to ask for a break during the trial if she was having trouble understanding
the proceedings.
On appeal, the Supreme Court affirmed, essentially holding that the trial court
may reasonable accommodations because of Wright’s disability, and ruling that any
inadequacy in the accommodations made did not make the trial “fundamentally
unfair”.
3
Here, the many extra images that were apparently displayed certainly were
intended to influence the jury, and to help convince them that these images actually
charged out were not accidentally on the computer, but rather placed there
intentionally, as part of an overall intent on the part of the defendant. Certainly there
was an argument that counsel could have made that the risk of unfair prejudice
outweighed the probative effect of the evidence, but he did not make that argument,
and I am not convinced it would have been successful even if he would have objected.
And while the arguments made by the prosecutor should have been objected to, again^
I am not convinced that if those statements been objected to and stricken from the
record, and had the jury been told to disregard that evidence, that the verdicts of the
jury would have been different. The evidence of guilt was strong, and the trial the
defendant received was fundamentally fair.
I have reviewed the other claims made by the petitioner in his pro se petition and
in his testimony and find them to be without merit. It was not a perfect trial, but
overall it was a fair trial.
Therefore I conclude under the guidance of the Strickland test that the
defendant/petitioner was not provided ineffective assistance of counsel, and the Writ
ought to be quashed. I direct the States Attorney to prepare the appropriate Findings
of Fact and Conclusions of Law and Order for the Court’s signature.
Sin<
Josep lNeries
Circuit Court Judge

ll

STATE OF SOUTH DAKOTA
COUNTY OF MINNEHAHA

)
:SS
)

IN CIRCUIT COURT
SECOND JUDICIAL CIRCUIT

HAIDER ABDULRAZZAK,
CIV. 13-2004
Petitioner,
Findings of Fact,
Conclusions of Law .and Order

vs.
ROBERT DOOLEY, Warden of the
Mike Durfee State Penitentiary,
Respondent.

The above-endded matter came on for hearing before the Honorable Joseph
Neiles. The Court, having reviewed the record, the evidence and counsels’ arguments
made at the hearing now makes the following:
FINDINGS OF FACT
1.

This is a Habeas Corpus proceeding.

2.
The petitioner is an inmate in the South Dakota State Penitentiary, apparently
currently housed at the facility in Springfield, SD.
3
He was sentenced to the Penitentiary in Minnehaha County Cr. 10-5422 as a result
of his convictions in front of a jury for 14 counts of Possession, Manufacturing or
Distribution of Child Pornography, in violation of SDCL 22-24A-3,
4.
He was represented in the case at trial by attorney Mike Hanson, an attorney in
private practice here in Sioux Falls, retained by the defendant.
5.
Then Circuit Judge Peter Lieberman (now retired) sentenced the petitioner to
three years in the Penitentiary with two years suspended on each of the first six counts of
the Indictment, imposed three years in the penitentiary with one year suspended on .
count seven and imposed no sentence on counts eight through fourteen.
6.
The defendant received credit for 180 days in jail already served up until that
point.
7.
Judge Lieberman ordered the sentences to be consecutive, in effect causing the
defendant to be facing a sentence of eight years in the penitentiary, with an additional 13
years suspended.

APPENDIX
D

8.
This judgment and sentence was appealed to the South Dakota Supreme Court,
(the petitioner was represented by the Public Defender for the appeal) and the Court did
summarily affirm the judgment in an order signed by the ChiefJustice on January 14,
2013.
9.
It is claimed by present counsel for the petitioner that the issues in this direct
appeal related to (1) sufficiency of the evidence; and (2) a claim that the sentence
imposed was excessive,
10.
It would appear that the petitioner at some point was granted parole, and then
was charged with some parole violation, as the file reflects that attorney Aaron Salberg
was appointed by the Circuit Court to represent the for a parole violation in late 2016.
11.
No order appointing counsel appears in the file but the file does reflect that
Circuit Judge Larry Long was contacted by the Parole Board to appoint a lawyer for that
proceeding, and Judge Long apparently scrawled Salberg's name across the top of the
application form.
12.
It is unknown why Judge Long would have appointed Salberg when the Public
Advocate was already representing the petitioner in this matter.
13.
There is no evidence in this record regarding whether the petitioner was granted
parole or when he might have been granted parole, or whether his parole was revoked at
some earlier proceeding, or whether his suspended sentence was ever imposed.
14.
The Warden here has not raised the issue of whether this Habeas proceeding
would have been moot because the petitioner had been released on parole, and I assume
that had the petitioner been not in custody, this petition would have been subject to
dismissal. See Bostick v. Weber, 2005 SD 12, 692 N.W.2d 517.
15.
Petitioner initially submitted his petition pro se and asked for court-appointed
counsel.
16.

The pro se petition raised 75 different points which he described as issues.

17.
Many related to complaints about the work his lawyer did or did not do in
representing him at the trial.1

1 Many of the issues raised by petitioner in this initial petition are totally without merit, as
they clearly relate to trial tactics that a lawyer might decide to pursue, or they are raising
issues that have no legal validity, or they do not rise to the level of a constitutional
violation, and therefore are not cognizable through a Habeas Writ.
2

18.
However, eventually in April of 2014 Ms. Hofer, representing the petitioner here,
filed an Amended Application for a Writ of Habeas Corp us.
19.
I consider this Amended Petition to preempt the original petition, in effect setting
those initial claims aside and raising only the issues spelled out in the new Petition.
20.

This Amended Petition raised the following is sues:
(1)

(2)

(3)

(4)

(5)

(6)

(7)

Trial counsel was ineffective for his failure to file a motion to suppress the
statements made by the petitioner while being interrogated by the officers,
claiming that he was subjected to a custodial interrogation without the
Miranda warnings.
Trial counsel was ineffective for not file a motion to suppress the
statements made during the interview because the petitioner did not
understand the language line interpreter’s interpretation of the officer’s
questions.
Petitioner did not understand the interpreter used during the trial, as he
was ^"Syptian and petitioner was Iraqi, and they speak with different Arabic
dialects. He claims he told his lawyer of this problem but trial counsel did
not address it.
Trial counsel failed to provide effective assistance of counsel by his failure
to investigate a potential alibi claim regarding the dates and times that the
child pornography was being accessed, downloaded and viewed.
Petitioner was denied effective assistance of counsel by his lawyer’s failure
to make a motion for disclosure of other acts evidence, and failed to object
to “other acts evidence offered during the trial by the state.
Petitioner was denied effective assistance of counsel by his trial counsel’s
failure to object to the prosecutor improperly vouching for his witness by
stating that the Detective was “honest.” He further asked the jury who
had a motive to lie, and stated that the detective had no motive to lie.
Petitioner was denied effective assistance of counsel by his trial counsel s
failure to have the hard drive reviewed by an expert. She claims this failure
to have it reviewed by an expert resulted in two more images that were not
charged out being shown to the jury.

3

21.
Asa result of this Amended Petition, Circuit Judge Patricia Riepel issued a
Provisional Writ of Habeas Corpus in April of 2014
22.
After sendee of the Writ, the Warden through the Minnehaha County States
Attorney s Office filed a return to the Writ.
23.
Among other claims, counsel asserted that some if not all of these claims could
have been raised in direct appeal, and since they were not, they were waived.
24.
Also, the Warden asserts that some of the issues were not preserved because no
objection was raised at trial.
25.

-

Otherwise, the Warden generally denies the claims of the petitioner.

26.
I consider claims of ineffective assistance of counsel to generally not be waived
by a defendant in his direct appeal, as the Supreme Court has clearly indicated that a
direct appeal is a poor vehicle for such claims absent some gross violation, and
generally filing those claims as part of a Habeas proceeding allows trial counsel to
testify and answer questions about why they did what they did.
27.
And pretty' much by definition, ineffective assistance of counsel means that trial
counsel did not object at trial to the evidence, and so the Court does not consider that
a valid objection to the petition here.
28.
At the hearing on the petition, which started on September 20, 2016 before this
court, attorney Michael Hanson was called to testify.
29.
He said he was retained by the petitioner after he was initially appointed the
Public Defender.
30.

He said the case had been delayed several times by the PDO.

31.
He noted that the PDO had retained a computer expert to assist them in
looking at the computer, and Hanson spoke with the lawyers from the PDO that had
been representing the petitioner, and reviewed the expert’s findings, and also talked to
the expert personally.
32.

He said the case involved two computers plus an external hard drive.

33.
The expert said that Lime Wire had been installed on the computer and then
deleted..
34.
He said that all of the images in the computer had been deleted, and were only
found in the hard drive.
4

35.

He was able to determine when the computer was used.

36.
He said that Law Enforcement had not been able to access all of this because of
the Arabic coding involved.
37,
It was his opinion that it appeared that as soon as the Petitioner arrived in the
United States that the computer was used to access pornography sites, in New York
and again in Chicago, and then in Sioux Falls.
38.
He told Hanson that he had found deleted images and other child pornography
that law enforcement had not found.
39.
He did not prepare a formal report as to his findings because then he would
have had to disclose all of these findings in the report (and presumably that
information would have been harmful to the petitioner’s case).
40.
Hanson testified that it was his judgment call not to produce this expert during
the trial for fear that some of this harmful evidence would have been disclosed.
41.
Hanson said that it was his understanding from talking to petitioner that he had
bought the computer in Syria as well as the hard drive.
42.

He said there were no laws against visiting pom sites in Syria.

43.
The defendant said that the computer had LimeWire when it was purchased,
and he used it one time and then deleted it.
44.
He also told Hanson that there were times that friends came to his apartment
that might have had access to his computer.
45.
The roommate testified at the trial that the night in question they had a party
and other Iraqis were present, and the computer was not password protected.
46.
He said during the trial that it came to light there were a huge number of images
that had not been disclosed to the defense, and so he asked the trial judge for time to
review this information, and Judge Lieberman gave him two hours.
47.

His secretary said this was a massive download of images to the hard drive.

48.
He noted among the images downloaded was an application for heating
assistance and a resume.
49.
As far as the statements taken from the petitioner, he said he reviewed them at
the time and thought there might be an issue of voluntariness.
5

50.

It was his understanding that the petitioner and his roommate may have been
handcuffed at some point during the police interview, and certainly had been told they
were not free to leave.

.

51.
He said also the issue of the use of Language Line as an interpreter was
discussed.
52.
He also testified that he met with the state’s computer expert and die
prosecutor came along.
53.
The prosecutor told him there were many other images, although some were
questionable as to whether it was child pornography.
54.
Hanson noted that he never had any trouble communicating with the petitioner
during the time he was involved in the case.
55.

He never had to use an interpreter.

56.
He acknowledged that Petitioner did tell him that the interpreter provided was
Egyptian, not Iraqi.

57.
But he put in context of not trusting the Egyptian, not that he could not
understand him.
58.
The judge held a hearing on this issue and asked the interpreter if there were
different dialects of Arabic, and the interpreter said that there were not.
59.
He concluded that the petitioner fully understood everything that was being
said, even if he did not fully understand the intricacies of the American Legal System.
60.

He acknowledged that he filed no motions on behalf of the petitioner.

61.

He subpoenaed three witnesses for the petitioner for the trial.

62.

The roommate was actually called as a witness by the prosecution.

63.
Hanson said he had subpoenaed a person from LSS, but LSS raised a stink
about that.
64.
The witness did appear, but did not have much to say that would have been
helpful and was not called, I think.
65.
Hanson claimed he did not want to make a motion to discover specific items on
the computer that it might open the door to additional criminal charges.
6

66.
He said he did not make a motion to keep out those other images at the trial,
and admitted in hindsight that it would have been good to keep those images from the
jury.
67.
He did not make a motion regarding other acts evidence because he thought if
the state intended to introduce such evidence they would have to give him notice
regarding that intent.
68.
Basically, Hanson said it was a judgment call by him as to how he was going to
treat the evidence.
69.
Iheir defense was that his client was not aware of these images on his
computer.

70.

He was concerned throughout that additional evidence his computer expert had
found might come out that would have harmed their case further, and so was stepping
lightly on some of these issues.
71.

Petitioner also testified at the hearing.

72.

He testified that he arrived in the United States in June of 2009 after fleeing
from Iraq on February 24, 2008, and was first visited by the detectives in December of
2009, at his residence here in Sioux Falls.

73.

He became aware of the police investigation when his roommate got a phone
call, but apparently they did not understand what was going on so they called another
individual who spoke both English and Arabic, and learned that the police were at their
home and they needed to go home.
74.
Petitioner said that he called his case worker from LSS and met him at their
apartment.

75.

Once at their apartment they discovered the police were already inside, and the
LSS case worker was there waiting for them.
76.
They asked the case worker to translate for them, but the police officers would
not let the case worker enter.
77.
They (petitioner and his roommate) entered the apartment and the detectives
were questioning them.
78.
At the time, petitioner was in the process of studying English and was seeking a
GED.
7

79.
He acknowledged he knew some English words but did not fully understand
the meaning of all of the words being said.
80.

The officers directed them where to sit.

81.
He noted there were 4-5 people in the apartment including one person he
believed to be an Immigration agent for the Federal government.
82.
After a short while the roommate was directed to move to sit next to petitioner
on their couch.
83.
The police officers obtained an interpreter, but petitioner claims he had a hard
time understanding the dialect used by that interpreter.
84.
He claimed that Arabic varies from country to country, and a particular word
may have a different meaning depending upon the country.
85.
He believed that he was told he was not under arrest, and believes he was told
he did not have to speak to the detectives, but in his home country of Iraq refusing to
speak to the officers would be problematic.
86.

He mentioned the corruption there of the officers.

87.
Despite what he had been told by the officers, he did not feel he had the
freedom to get up and leave the apartment at that time.
88.
Petitioner represented he told Mr. Hanson all of this plus told him that he was
not comfortable with the use of the Egyptian interpreter, as he could not fully
understand him.
89.

In addition, he testified to some of his other issues that he had with the case.

90.
He talked about the circumstances of purchasing the computer and having the
computer with him on the border with Syria.
91.
He said some of the images do not have a time stamp, and when they were
uploaded or viewed was mere speculation by the prosecution.
92.
He believed that the 287 thumbnails were copied from another computer into
the external hard drive.
93.

He said he removed the Lime Wire from his computer in October, 2009.

94.
He also complained that the prosecutor tried to use his religion against him, but
the judge ruled in petitioner’s favor, but the jury was not properly instructed to

disregard these comments.
95.
Petitioner also expressed concern that Mike Hanson never talked to his
roommate before the trial, and claims he gave Hanson the names of 10 people that had
been in his apartment and might have had access to the laptop, although he could no
longer remember their names at the time of his testimony, noting he suffered from
PTSD.
96.

Overall, he claims that he was framed for this offense.

97.
The hearing was recessed to allow attorney Michelle Thomas to testify on
behalf of the Warden.
98.
She has worked for the Minnehaha County Public Defender’s Office since
January of 2004, and so at the rime she was initially appointed to represent the
petitioner she had about 6 years of experience in criminal defense work.
99.
She testified that she first met with the petitioner on 1/6/11, and then appeared
with him on 1/19/11 and asked for a further delay in the hearing to consult with a
computer expert (Dan Meinke).
100. On 3/1/11 she met with Meinke and noted that the information she had was
that the petitioner had arrived in the United States of 6/29/09, and the first file in the
computer was created on 6/30/09, which meant that this computer was being used to
download child pornography right after entry into the United States.
101. She also noted that it was her understanding that the deleted images in the hard
drive indicated about 500 files were recovered containing apparent child pornography.
102. She said that petitioner joined her in a meeting with Meinke, and it was noted
that there was a lot of child pom that had been downloaded into the computer over
several months.
103. In exhibit #9, her notes from her representation, she noted that petitioner had a
roommate, but that roommate had his own computer and would not use petitioner’s
computer.
104. She also testified that had she used an interpreter in her conversations and
meetings with interpreter, she would have made a note about that in her personal
notes.
105. She did not file any suppression motion regarding any of the state’s evidence,
admitting that had she seen any legitimate issues to raise she would have filed such a
motion.
9

106. In cross-examination, she noted that she had taken over the case from Bryan
Hall, another Public Defender lawyer who was leaving the office.
107. She acknowledged that her notes do not reflect any discussion with petitioner
regarding his interview with law enforcement.
108. She did have notes reflecting that she did receive a CD that was represented to
be petitioner’s interview with law enforcement, but it turned out to be another
individual on the CD, not the petitioner.
109. In response she had emailed the prosecutor requesting the correct CD, but did
not note whether she ever received one.
110. And then Mike Hanson took over the case in early March of 2011 and her
involvement ended.
111. In cross-examination by the Court she acknowledged that over time she has had
from time to time issues with defendants who are Arabic speaking but do not
understand the dialect of the interpreter being used by the Court.
112. After this testimony the Court heard the arguments of counsel, and also allowed
the petitioner to again address the Court about his separate issues, but I was primarily
concerned about his complaints about his representation by counsel, and his view on
that.
113. As noted above, when the Amended Petition was filed, any issues not raised
there were considered to be waived.
CONCLUSIONS OF LAW
1.
Any Finding of Fact more appropriately found to be a Conclusion of Law shall
be deemed so, and any Conclusion of Law more appropriately found to be a Finding
of Fact shall be deemed so.
2.
The Finding of Fact and Conclusions of Law stated in the decision letter dated
March 17, 2017, are hereby adopted in their entirety and to the extent that any written
finding of Fact and Conclusions of Law herein conflicts with the decision letter, the
decision letter dated March 17, 2017, shall control.
3.
The petitioner has raised a large number of issues concerning this case and his
representation by counsel.
4.
All of the issues, one way or another, come down to a claim of ineffective
assistance of counsel.
10

5.
The Court would, for purposes of discussion here, regroup the issues into four
main categories:
First, complaints about counsel’s failure to rttove to suppress statements made by the
defendant to law enforcement officers, based upon 1) failure to comply with Miranda;
2) failure to provide an appropriate interpreter for the petitioner.
Second, complaints about counsel’s failure to explore an alibi claim.
Third, complaints about counsel’s failure to discover and move to suppress other acts
evidence, that is, the other images on the computer not charged out in the indictment
but shown to the jury during the trial.
Fourth, complaints about counsel’s failure to object to the prosecutor’s vouching for
the credibility of the detective during argument.
6.

Some of these issues are relatively easy to resolve.

7.
It appears to the Court from the petitioner’s own testimony that he was told by
the officers at the scene that he was not under arrest and did not have to speak to
them.
8.
Apparendy petitioner, because of his background in living in Iraq, did not
believe the officers and was intimidated by them.
9.
That is not, in the Court’s view, sufficient to cause the Court to conclude that
this was a custodial interrogation.
10.
The Court believes the test is whether a reasonable person would have
concluded that they were under arrest or otherwise being detained, and under that
subjective test the Court would conclude that petitioner was not in custody and so
therefore no Miranda was necessary.
11.
The second part of that issue, regarding the issue of the interpreter, is defeated
by the testimony of Mr. Hanson.
12.
The Court would certainly conclude from the testimony that there are potential
differences from country to country in the Arabic world regarding the use and
definitions of certain words, and the meanings can be confusing.
13.
That is certainly true in the English speaking world (As an example, in England
what we describe as an elevator is called a lift).
14.
But a general statement about some confusion about a few words use is not
sufficient to cause me to throw out these convictions.

15.
Petitioner would have needed to be much more specific, pointing to words that
he said and how those words were misinterpreted by the interpreter.
16.
In addition, he should have presented expert testimony that an Arabic speaker
from Egypt would use a particular word one way, and an Arabic speaker from Iraq
would use it a different way, and then point out how that affected this case.
17,
There is simply not enough evidence on this point to cause this court to
conclude that this issue rises to a constitutional level.
18.
The second major claim, in my view, is that petitioner claims ineffective
assistance because his lawyer did not fully explore an alibi claim.
19.

The problem with this claim is pointed out by Ms. Thomas’ testimony.

20.
The examination of the computer by the defense expert showed that child porn
was being downloaded into this computer within 24 hours of the petitioner arriving in
the United States, and continued apparendy from time to time over the next six
months or so.
21.
This possible defense was going to go nowhere, and may have actually resulted
in the prosecution discovering additional damaging information about this case,
perhaps resulting in additional criminal charges.
22.

The third area of concern relates to the other acts evidence.

23.
Apparendy trial counsel did not seek to have the prosecution disclose “other
acts” evidence ahead of time and did not seek to exclude or suppress that evidence.
24,
Mr. Hanson thought that the prosecution would have to give advance notice of
intent to use such evidence.
25.

I would agree that this was error on the part of Air. Hanson.

26.
He should have moved the court ahead of time for an order directing the state
to disclose such evidence if they intended to use any, and once disclosed, he should
have moved to keep such evidence out.
27.
However, it is uncertain whether the trial judge would have granted that request,
or perhaps only granted it partially.
28.
The trial judge would have had to balance the risk of “unfair prejudice” under
Rule 403 with the permitted uses under 404 (b)(2), such as to show knowledge, absence
of mistake or lack of accident, and intent and preparation and plan, perhaps.
12

29.
It might be that the trial judge would have permitted the use of some of this
evidence, but not all.
30.
The fourth area of concern would be the improper “vouching” for the
credibility of the state’s witness by the prosecutor.
31.
The transcript shows that Deputy State’s Attorney Sage did on several occasions
vouch for the credibility of his witness and his evidence, and express disbelief at the
claims of the defendant, accusing him of being less than truthful.
32.

During the closing argument, Mr. Sage visited this area several times.

33.
On page 64, lines 9-20, he said the defendant was arguing that other people had
access to his computer and could have downloaded these images, and then a moment
later in his argument points to evidence which he thinks is inconsistent with that claim.
34.
The Court agrees he was attacking the defendant’s credibility, but the Court
does not find anything at this point seriously wrong with this particular point in the
argument.
35. .

He continued to attack the credibility of the defendant on page 71, lines 18-24.

36.
Again, while he is attacking the credibility of the defendant, the Court finds no
error here, as he is basically arguing that the jury will find the defendant to be not
believable when they analyze the evidence as he suggests.
37.
He then again attacked the defendant more direcdy, arguing he was not telling
the truth during his testimony, in the arguments made on page 74.
38.

On line 10, Mr. Sage said: “He lied to you.”

39.

That was improper.

40.
It came across as Mr. Sage’s opinion on the credibility of the defendant, and this
is an area where the prosecutor must not go.
41.

There was no objection from defense counsel, however.

42.
On page 76, Mr. Sage began to talk about the law enforcement officers, talking
about how they entered and tried to document everything and they are not on a witch
hunt (lines 6-9).
43.
And then, on line 13, in talking about Detective Kuchenreuther, he states “He is
honest.”
13

44.
This is clearly improper argument, but again, there was no objection from
defense counsel.
45.

Mr. Sage then asks the question “Who has the motive to lie here?” (lines 14-15)

46.
The Court thinks this question to be borderline improper, mostly because he is
not expressing his opinion about it direedy, but rather asking the jury to answer that
question.
47.
But it was troublesome when it followed the other, earlier statements
mentioned above.
48.

And again, there was no objection to this statement either.

49.
In State v. Gaodroad, 455 N,W.2d 591 (SD 1990), the defendant was being
prosecuted on drug charges in Hughes County.
50.
Another individual, Feeney was arrested and was prosecuted for a felony
marijuana possession charge, and as part of his plea bargain he was to name the
persons with whom he had trafficked drugs.
51.

Goodroad was identified as his main source.

52.
At Goodroad’s trial, a law enforcement officer was allowed to testify that
Feeney had promised to testify truthfully as part of the plea bargain, and if he lied
about anything he could be prosecuted further.
53.

This was all before Feeney himself had testified.

54.

Feeney also made more or less the same claim in his testimony as well.

55.
Then, during closing arguments the prosecutor argued that Feeney had staked
his freedom on telling the jury the truth.
56.
The South Dakota Supreme Court noted that the Ninth Circuit Court of
Appeals had held this type of testimony to be improper, citing a United States Supreme
Court decision from 1958.
57.

Clearly, here, the prosecutor went too far in at least some of his argument.

58.

But, that is not the issue before the court.

59.
This Habeas Court only can consider this trial error if it rises to the level of
ineffective assistance of counsel thereby making it a constitutional error.
14

60.
The test to then be applied is spelled out in Strickland v. Washington, 466 U.S.
668, 687, 104 S.Ct. 2052, 2064, 80 L.Ed.2d 674 (1984): the defendant must show that
...counsel made errors so serious that counsel was not functioning as the counsel
guaranteed the defendant by the Sixth Amendment (to the United States Constitution)
and that counsel’s errors were so serious as to deprive the defendant of a fair trial, a
trial whose result is reliable.
61,

This test was long ago adopted in South Dakota, and has been reaffirmed many

times.
62.
In order to meet this burden, a petitioner must show that his lawyer’s
performance was not objectively reasonable under prevailing professional standards,
and, that absent the deficient performance, there is a reasonable probability that the
result of the proceeding would have been different.
63.
Applying these standards to the present case, while the Court acknowledges that
errors were made by counsel, the Court does not believe even if counsel had handled
properly the issue of the other acts evidence, and even if counsel had handled properly
the issues surrounding the improper vouching of witnesses by the prosecutor, that
these changes would have made any difference in the outcome of the case.
64.

A defendant is entitled to a fair trial, not a perfect trial.

65.
In the high-profile murder trial of Daphne Wright, held here in Minnehaha
County in 2007, (State v. Wright, 2009 SD 51, 768 N.W,2d 512) the defendant was deaf,
and required an interpreter throughout all court proceedings.
66.
She was ultimately convicted, and among her issues in the appeal was her claim
that she should have been provided with a certified deaf interpreter (CDI) as well as
consecutive interpretation.
67.
Prior to trial, a psychologist conducted an evaluation of Wright and noted that
while her non-verbal IQ was 114 to 117, there was the possibility of brain damage
given her low ability to read.
68.
He said she had a good grasp of American Sign Language (ASL) but there were
many legal terms for which there were no signs.
69.

He thought it would be difficult to communicate many legal concepts to her.

70.
He recommended the court have the testimony interpreted to Wright
consecutively rather than simultaneously.

15

71.
He thought using real time captioning where she could read the testimony as
the court reporter typed it would be of little use because of her limited comprehension
levels.

72.

After the trial court denied consecutive interpretation, Wright moved the court
to use a CDI, which is an interpreter who is deaf or hard-of-hearing.
73.
Using this method, the interpretation would pass from a hearing person to a
hearing interpreter, and then to a deaf interpreter, who in turn interprets for the
defendant.
74.
In support of their request for this specialized interpretation, counsel for the
defense presented testimony from a Professor from the University of Wisconsin Law
School that Wright did very well with ASL in casual conversation, but when they tried
to talk about the case it was like hitting a brick wall.

75.

Despite all of this the trial judge denied the consecutive interpretation and
denied the CDI for the courtroom testimony.
76.
The trial court allowed the CDI to be used outside the courtroom, and provided
five Level Five certified ASL interpreters to both interpret and assist in helping Wright
to understand, plus real time captioning.

77.

The trial was also-videotaped, capturing the ASL interpreting for Wright.

78.

In addition, daily DVD’s were provided for Wright’s renew every evening.

79.
Then, in the morning before the trial started up again, defense counsel and
Wright could bring to the attention of the court any problems arising through these
efforts.
80.
Finally, Wright was permitted to ask for a break during the trial if she was
having trouble understanding the proceedings.
81.
On appeal, the Supreme Court affirmed, essentially holding that the trial court
made reasonable accommodations because of Wright s disability, and ruling that any
inadequacy in the accommodations made did not make the trial fundamentally unfair.
82.
Here, the many extra images that were apparently displayed certainly were
intended to influence the jury, and to help convince them that these images actually
charged out were not accidentally on the computer, but rather placed there
intentionally, as part of an overall intent on the part of the defendant.
83.
Certainly there was an argument that counsel could have made that the risk of
unfair prejudice outweighed the probative effect of the evidence, but he did not make
16

that argument, and the Court is not convinced it would have been successful even if he
would have objected.
84.
And while the arguments made by the prosecutor should have been objected to,
again, the Court is not convinced that if those statements been objected to and stricken
from the record, and had the jury been told to disregard that evidence, that the verdicts
of the jury would have been different.
85.
The evidence of guilt was strong, and the trial the defendant received was
fundamentally fair.
86.
The Court has reviewed the other claims made by the petitioner in his pro se
petition and in his testimony and find them to be without merit.
87.

It was not a perfect trial, but overall it was a fair trial.

88.
Therefore I conclude under the guidance of the Strickland test that the
defendant/petitioner was not provided ineffective assistance of counsel, and the Writ
ought to be quashed.
Dated this

>3 day of May, 2017.
BY:

The Honorable Joseph Neiles
CIRCUIT COURT JUDGE
ATTEST:
Angelia M. Gries, Clerk
B.y

deputy

jj

may 2 3

20,7 jJJ

^ '^i^nmhaha County, Vd.
Clark Circuit Court

17

STATE OF SOUTH DAKOTA

)

IN CIRCUIT COURT

:SS
COUNTY OF MINNEHAHA

)

SECOND JUDICIAL CIRCUIT

HAIDER ABDULRAZZAK,
CIV. 13-2004
Petitioner,
vs.

Order

ROBERT DOOLEY, Warden of the Mike
Durfee State Penitentiary,
Respondent.

This Court having entered Findings of Fact and Conclusions of Law denying Habeas
Corpus relief to Petitioner, it is hereby
ORDERED that Petitioner’s Amended Application for Writ of Habeas Corpus is
DENIED in its entirety, and it is further
ORDERED that this Court’s Provisional Writ of Habeas Corpus, dated April 21,2014,
is QUASHED.
LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated this
Dakota.

3A day of May, 2017, at Sioux Falls, Minnehaha County, South
BYTHD;COURT:

JOSEPH! NESLES
Circuit Court Judge

ATTEST:
ANGELIA M. GRIES, Clerk of Courts

•:

i

k
I,

By:

5

'

Deputy

Is
£-

£
&

n MAY2^2WtD)

1

I

Minnehaha County, S.D.
Clerk Circuit Court

e

1

APPENDix
E

i
p

ts

;•,

STATE OF SOUTH DAKOTA )
) SS
COUNTY OF MINNEHAHA
)

IN CIRCUIT COURT
SECOND JUDICIAL CIRCUIT

***************************** * . * * *

HAIDER ABDULRAZZAK,
Applicant,
vs.
BOB DOOLEY, Warden,
Mike Durfee State Penitentiary,
Respondent.

★
*

CIV. 13-2004

*

CERTIFICATE OF PROBABLE
CAUSE
*

*

* * * * *****************************

The Court having received and reviewed Petitioner's Motion
of Certificate of Probable Cause, and good cause appearing, it is
hereby,
ORDERED that the Petitioner's Certificate of Probable Cause
is :

GRANTED, so the Petitioner may appeal the following

issue to the South Dakota Supreme Court:

DENIED, for the following reasons:

appendix
F

'i #

Dated this

day of June, 2017,

Judge Joseph Neiles
Circuit Court Judge
ATTEST:
Angelia M. Gries. Clerk
BY:
Deputy

\

^ FEB 0 5 8018 jjj
Minnehaha County, S.D.
Clerk Circuit Court

4/

'^CANNED
STATE OF SOUTH DAKOTA)
:SS
COUNTY OF MINNEHAHA)

HAIDER ABDULRAZZAK,
Petitioner,
vs.

IN CIRCUIT COURT
SECOND JUDICIAL CIRCUIT

CIV 13-2004
ORDER VACATING
PRIOR ORDER DENYING
CERTIFICATE OF
PROBABLE CAUSE

BOB DOOLEY, Warden, Mike
Durfee State Penitentiary,
Respondent.
Counsel for Petitioner filed a Motion for Certificate of Probable Cause
pursuant to SDCL 21-27-18.1 on June 19, 2017. The Honorable Joseph
Neiles denied the motion for certificate of probable cause on February 5,
■ 2018. However, counsel for Petitioner did not receive notice or service of that
order until after the 20 day period to request a certificate of probable cause
from the South Dakota Supreme Court had expired. Petitioner’s counsel was
unaware of the denial of the certificate of probable cause and was unable to
comply with the time requirements of SDCL 21-27-18.1.
Pursuant to Hafner v, Leaplev. 520 N.W.2d 252 (S.D. 1994) and
Christensen v. Weber, 2007 SD 102, 740 N.W.2d 622, the denial of certificate
of probable cause filed February 5, 2018 is hereby VACATED.
Dated at Sioux Falls, South Dakota thisG^lL day of June, 2018.
BJPTHB COURT:

D<>ji@|0® E. Hoffman
Circuit Court Judgte^
APPENDIX
G

•■*5
■*

i
A

m

ATTEST:
Angelia M. Gries, Clerk of Court
By^^> — ^-<CTrJDeputy

&£% PIIES^
Minnekaha County, S.D.
Clerk Oircutt Court

SCAMMED
STATE OF SOUTH DAKOTA)
:SS
COUNTY OF MINNEHAHA)
HAIDER ABDULRAZZAK,
Petitioner,

IN CIRCUIT COURT
SECOND JUDICIAL CIRCUIT
CIV 13-2004
ORDER DENYING MOTION
FOR CERTIFICATE OF
PROBABLE CAUSE

vs.

BOB DOOLEY, Warden, Mike
Durfee State Penitentiary,
Respondent.
Upon review of Petitioner’s Motion for Certificate of ProJbable Cause,
the Motion is DENIED.
Relying on upon the findings of fact and conclusions of law entered by
the Honorable Joseph Neiles on May 23, 2017 and the Order entered May 24,
2017 denying habeas relief, there is no reason to change any of the prior
rulings. These rulings are consistent with well-established legal principles
and there exists no reason to issue a Certificate of Probable Cause.
Dated at Sioux Falls, South Dakota thisday of June, 2018.
COURT;
4

E. Ho

ATTEST:
Angelia M. Gries, Clerk of Court
By

a

‘pilJISFh

| JUN 2 7 2018 Jj

Fk>pnfy
Minnehaha County, S.D.
Clerk Circuit Court

APPENDIX
H

Minnehaha County Public Mvocate

January 23,2019

Haider Abdulrazzak #4373
c/o Mike Durfee State Prison
1412 Wood St
Springfield, SD 57062

Dear Haider:
I am sorry to inform you that the Supreme Court has denied your application for a certificate of probable
cause I have enclosed a copy of the Order for your records. This means that at this point, all of your
appeals have been exhausted in state court. Any further relief would have to come through a federal
habeas action. As such, your file will be closed within this office.
I wish you luck and hope that things go well for you in the future.
Sincerely,

duRe Hofer
Attorney
JAH

APPENDIX
I

miNNEHfiHR
COUNTY

Administration Building, 3rd Floor
415 IM. Dakota Avenue, Sioux Falls, SD 57104

Strong Foundation. Strong Future.
Equal Opportunity Emptoycr and Service Provider

P: (605)367-7392
F: (605)367-7415

minnehahacounty.org

4m
I-18 T^gaFBF
%
&

JAN 2 2 2019
IN THE SUPREME COURT

SUPREME COURT
STATE OF SOUTH DAKOTA

FILED

JAN 1 8 2019

OF THE
STATE OF SOUTH DAKOTA
*

HAIDER ABDULRAZZAK,
Petitioner,
vs.
ROBERT DOOLEY, Warden,
Mike Durfee State Prison,
Respondent.

* *
)

)

ORDER DENYING MOTION FOR
CERTIFICATE OF PROBABLE CAUSE

)
)
)
)
)
)
)

#28656

Petitioner having served and filed a motion for a
certificate of probable cause to appeal from a final order entered by
the trial court in the above-entitled habeas corpus proceeding on July
6, 2018, and respondent having served and filed a response thereto,
and the Court having considered the motion and response and having
determined that probable cause that an appealable issue exists has not
been demonstrated, now, therefore, it. is
ORDERED that the motion for a certificate of probable cause
be and it is hereby denied.
DATED at Pierre, South Dakota, this 18th day of January,
2019.
BY THE COURT:

ATTEST:
David Gilbertson, Chief Justice
Clterk'of t^^Supreme Court
(SEAL)
PARTICIPATING: Chief Justice David Gilbertson and Justices Janine M. Kern,
Steven R. Jensen and Mark E. Salter.

petitiomeks
EXWtelTS' SUBMISSION
. ExV^fi I*. cW\tc\5 ^
^tUcw^,

xu[b/

otWa^y 3uI;<l

- ExW^l2; cW\^s
u>Vc^
c\Ww W

Lip^)

'Cuistl^y
v%om

qt

^is'WncjLW\t(4 WVeosWkl oAo^^i
W ‘BlK
\aVvs c^t, \^\4. c%$s)

- £x’v^ s f cWv.es V ^ ^sA by
*t
+\^^a\ju\
^rV^Ws fe^ui | m. jstfe.- Sov't, C/fc^es)

- EySk^iH' c\o^3
x __ ___
____
VvQ^S
cltect, a^8i\ W) &naiido^ \*^L& sW*,
Ws

De^^^cXWe.

M cAjuS, Lou^d’m . CI io 9*4^^
(^^TMTT) Pettici<vo^4 E'xVWjts

X-X
, ^tV-\cs\MOC^ Cbva

1,- %(3 4 ^ 0*A^\^K.te,

A)'Cv!i3Acis ^ 'GlVi-^ v\\\s
cwL sWic^Wa// G^Sicj^ Vw^C^^V \2 , Va,N~ 6 CT3

gxoowb ^ot '<e\w^ &nW\l)4Y\Ce,
-. ExVvV^t S; St^e Supc^e(ffi<>t
C&1\vKclu<5\\s cm
c^^tl

^
o?
G&W\Xo'lfoY\« (8\^V^)

r
-t-

appendix

-

fa

Setofoi' 34icul

C^^kotci. cKvijfhjj ^khjW&t '\\a\)^s \fe\j ^ (^\\
- B)C\\^h, 7' ^^bvSsk Ct
, M d\>&l£
Cl
-

8;

i Gdo*'t otaW QcsecsJKtv^ ^^bU\V^5

GbotLy Cm^iL G>o^t ck^|£^Va\a^
C^t^o4te

QUj^-e (, O

WfcWcv fxVo,Us\oi Va StA& Gdo^l ^mL<x_c^j
0\ ^*£,SbAe- So'^ftw*,
—

JtcJsicrr\. C^-

\0 i
c$\ O tcu.)t (©O^t c^/AvV\Y^o^vS&l
CoGOwty'' S/auX />/(k ctftt
(*-/ p^cj-cs)

So^w\ttedl.
31

d^y cf jAV\U&fv/ ,201?

^C^oXV^c | fV$ So,.

HuacW SiWV J\bcM^c3^/f, 4. f
syt- PmcTv
\H!2 lOocitt' Street

sh 57^2.
" 0.-

Case 4:19-cv-04025-RAL Document 7 Filed 04/18/19 Page 1 of 2 PagelD #: 156

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:19-CV-04025-RAL

Petitioner,
vs.

ORDER REQUIRING RESPONSE

BRENT FLUKE, ATTORNEY GENERAL
FOR THE STATE OF SOUTH DAKOTA,
. Respondents.

On February 4, 2019, Petitioner Haider Salah Abdulrazzak filed a Petition Under
28 U.S.C. § 2254 for Writ of Habeas Corpus by a Person in State Custody. Doc. 1. Abdulrazzak
moves for leave to proceed in forma pauperis but paid the five-dollar filing fee for an action
under 28 U.S.C. § 2254. Doc. 4.
This Court is to screen § 2254 petitions and dismiss when it “plainly appears from the
petition and any attached exhibits that the petitioner is not entitled to relief in the district court”
under Rule 4 of the Rules Governing Section 2254 Cases in the United States District Court.
From a reading of the petition, this Court cannot determine with confidence that it “plainly
appears” that Abdulrazzak is not entitled to any relief here, although ultimately that may be the
case.
Therefore, it is hereby
ORDERED that the Clerk of Court serve a copy of all pleadings of record and this Order
on Warden Brent Fluke and the Attorney General of the State of South Dakota. It is further

APPENDIX
K

Case 4:19-cv-04025-RAL Document 7 Filed 04/18/19 Page 2 of 2 PagelD #: 157

ORDERED that the Respondents file an answer, and if they so choose, a motion to
dismiss and memorandum, within thirty days of service of the pleadings. It is further
ORDERED that Abdulrazzak’s motion to proceed in forma pauperis, Doc. 4, is granted.
DATED April |g* 2019.
BY THE COURT:

ROBERTO A. LANGE '
UNITED STATES DISTRICT JUDGE

1

j

i

|

2

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 1 of 16 PagelD #: 306

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:19-CV.-04025-RAL
4:19-CV-04075-RAL.

Plaintiff,
vs.

OPINION AND ORDER GRANTING
MOTIONS TO DISMISS

BRENT FLUKE, WARDEN AT MIKE
DURFEE STATE PRISON, and ATTORNEY
GENERAL FOR THE STATE OF SOUTH
DAKOTA,
Defendants.

I.

Claims and Procedural History
In 19-CV-4025, Petitioner Haider Salah Abdulrazzak (Abdulrazzak) filed a Petition under

28 U.S.C. § 2254, challenging his conviction after a jury trial in state court of 14 counts of
possession of child pornography and his sentence thereon. 19-CV-4025, Doc. 1. Specifically,.
Abdulrazzak contends in grounds one and two of his petition that his trial counsel provided
ineffective assistance of counsel in not filing a motion to suppress statements Abdulrazzak made,
r

,

particularly because Abdulrazzak’s native language is Iraqi Arabic and not English.. Id. In ground
three, Abdulrazzak contends that he did not understand the Egyptian Arabic language translator at
.

•

.

‘

.

-

' tb ■

'

trial1 and thereby was deprived of his Sixth Amendment rights. Icl Ground four of the petition
contends that Abdulrazzak’s trial counsel failed to investigate potential alibi evidence of
Abdulrazzak not being near his computer when at least two of. the pornographic images were
r

A

' Y"

■ 1

appendix
L

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 2 of 16 PagelD #: 307.

downloaded. Id. Abdulrazzak had appealed his conviction and sentence, which were summarily
r

affirmed by the Supreme Court of South Dakota.

19-CV-4025, Doc. 1-6.

Abdulrazzak previously had filed a state court habeas corpus petition and amended
petition; the amended petition filed in his prior state court habeas corpus action raised as its first
four grounds the same grounds listed in his federal § 2254 petition in 19-CV-4025, Doc. 1. See
19-CV-4025, Doc! 1-7. State Circuit Court Judge Joseph Neiles denied Abdulrazzak habeas
corpus relief after an evidentiary hearing and declined to issue a certificate of appealability. Id. at
Doc.1-7,1-9.
Upon Abdulrazzak’s filing of his federal habeas action in 19-CV-4025, this Court screened
the petition and. required a response. Id. at Doc. 7. Defendants filed a Motion to Dismiss the
Application for Writ of Habeas Corpus, Doc. 8; attached documents thereto, Docs, 9-1 through 910; and arranged for filing of the state trial court records including transcripts and certain exhibits.
This Court granted Abdulrazzak additional time to reply. Id at Doc. 13. Abdulrazzak filed a
lengthy response raising many assertions and arguments not framed by his federal § 2254 petition.
Id. at Doc. 14. Abdulrazzak also filed a Motion for Evidentiary Hearing, in which Abdulrazzak
requests both an evidentiary hearing and appointment of counsel. Id. at Doc. 15.
Abdulrazzak’s second case in this Court, 19-CV-4075, involves a second separate petition
under 28 U.S.C. § 2254 challenging a decision of the South Dakota Board of Pardons and Paroles
revoking his parole. 19-CV-4075, Doc. 1. In ground one, Abdulrazzak contends a violation of his
Fifth and Fourteenth Amendment rights related to his refusal to admit matters related to a treatment
program. IcL In ground two, he contends that a basis for revoking parole was not supported by
•J

.

records or evidence. In ground three, he contends that the board arbitrarily and capriciously
modified his conditions to make them harsher. Id.

2

.

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 3 of 16 PagelD #:■ 308

This Court screened the petition in 19-CV-4075 and required an answer. Id. at Doc. 5.
Abdulrazzak failed to file a timely notice of appeal to state circuit court from the Board’s decision,
so he has filed a Motion to Excuse/Waive of Exhaustion contending that state court exhaustion of
his claims would be futile, id. at Doc. 4, as well as a Motion to Supplement Record, icL at Doc. 6.
Defendants filed a Motion to Dismiss, id. at Doc. 7, and a supporting memorandum, id. at Doc. 8.
Abdulrazzak opposes the motion to dismiss, id. at Doc. 12, and has filed a Motion for Evidentiary
Hearing, id. at Doc. 13. Abdulrazzak very recently filed a Motion for Injunctive Order, id. at Doc.
14, seeking to be transferred to a “work release unit pending the outcome of the petition,” id. at
Doc. 14 at 1. For the reasons explained herein, this Court dismisses both cases, 19-CV-4025 and
19-CV-4075.
II.

Facts
In September of 2010, a grand jury in Minnehaha County, South Dakota, indicted

Abdulrazzak on 14 counts of possession of child pornography in violation of SDCL § 22-24A-3.
Abdulrazzak pleaded not guilty, and his case was tried to a jury in June of 2011.
Abdulrazzak’s computer activity.had triggered an investigation by Minnehaha County
Sheriff’s Department Detective Derek Kuchenreuther. Detective Kuchenreuther.was assigned to
the Internet Crimes Against Children division in the Minnehaha County Sheriffs Office.. JTl at
99.1. As part ofhis duties to investigate child pornography on the internet, Detective Kuchenreuther
uses investigatory software designed to search for internet protocol (IP) addresses that accessed .
child pornography. JT1 at 113/ Upon finding an IP address identified as one downloading illegal
content, Detective Kuchenreuther downloads files from that suspect IP address. Upon confirming

1 This Court is using the citation method of“JTl” referring to volume one of the jury trial transcript
which was.provided to this Court with the respondent’s answer in 19-CV-4025.
3

'

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 4 of 16 PagelD #: 309

those files contain illegal content, Detective Kuchenreuther can use the IP address to determine
the physical location of that computer. JT1 at 107.
On December 8, 2009, Detective Kuchenreuther identified an IP address offering a list of
files containing terms consistent with child pornography. JT1 at 113-14. The terms included
PTHC (which stands for preteen hard-core), Lolita (a common search term for child pornography),
young little girls, eight yo, ten yo, and twelve yo (with “yo” standing for years old). The files from
the IP address at issue produced pornographic images of young girls. JTl at 116. Detective
Kuchenreuther determined that the IP address at question was registered to Abdulrazzak and
obtained a search warrant. JTl at 107, 117-21.
Some weeks later, Detective Kuchenreuther went with other law enforcement officers to
Abdulrazzak’s apartment residence. JTl at 121. After knocking on the door and receiving no
answer, Detective Kuchenreuther entered the apartment through an unlocked balcony door. JTl
at 122. Eventually, Detective Kuchenreuther and law enforcement made contact with two
residents of the apartment—Abdulrazzak and his roommate Akeel, Abed. JTl at 122. Law
enforcement found a computer in each of the occupants’ separate bedrooms. JTl at 123. In
Abdulrazzak’s bedroom, law enforcement found an external hard drive, CDs, DVDs, and thumb
drives, as well. JTl at 123. As a part of the execution of!the search warrant, Detective
Kuchenreuther operated equipment and software that allowed him to make an exact duplicate of
the hard drive of Abdulrazzak’s computer. JTl at 108.
Detective Kuchenreuther conducted a forensic examination of both Abdulrazzak’s and
Abed’s computers. That forensic examination generated information regarding the images, videos,
dates, and time files created, as well as their location on the hard drives. JTl at 110-11,133. The
examination of Abed’s computer found no Child pornography on it. JTl at 123. • The examination

4

/■

Case 4:19-cv-04Q75-RAL Document 16 • Filed 11/13/19 Page 5 of 16 PagelD #: 310

of Abdulrazzak’s laptop and external hard drive revealed that at some point in time that laptop
contained a program .called LimeWire. JT1 at 124. LimeWire is a free software available to the
public and used to download and share files such as music, videos, and photographs. JT1 at 111—
12.
Law enforcement interviewed Abdulrazzak in his apartment living room. JTlat 126. Law
enforcement explained that Abdulrazzak was not under arrest and did not have to speak with the
officers.

Doc. 1-7 at 5.2 After being told why law enforcement was investigating child

pornography downloaded from his IP address, Abdulrazzak admitted to using LimeWire to
download pornography. JT1 at 129. Upon being asked what search terms he used, Abdulrazzak
responded that he downloaded pornography by using “young movies” as a search term. JT1 at
'.129.-. ■

.

The forensic examination uncovered 34 images in Unallocated space on the hard drive of
Abdulrazzak’s computer.. JT1 at 132, Detective Kuchenreuther believed that the 34 images
displayed prepubescent females based on the fact that the females depicted had “no breast
development, no pubic hair, just small in stature.” JT1 at 132. Abdulrazzak’s external hard drive
contained 299. images and 8 videos which had not been deleted.

JT1 at 136.

Detective *

Kuchenreuther believed that almost all of the images and videos contained .child pornography. JT1
.

at 136.
Detective Kuchenreuther then met with prosecutors to discuss which images to charge
Abdulrazzak as having in his possession. JT1 at 146-47. The prosecutor decided that Abdulrazzak

2 Document 1-7 in this Court’s CM/ECF record contains the factual findings of Judge Joseph
Neiles, who conducted an evidentiary hearing on issues, such as voluntariness of Abdulrazzak’s
statements to law enforcement in his apartment.
5;-

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 6 of 16 PagelD #: 311

.

would be charged with 14 counts of possession of child pornography. JT1 at 147. Five of those
counts were based on images obtained from the unallocated space on the laptop.
Notwithstanding his statements to investigators, Abdulrazzak testified at trial that he never
used a computer to view child pornography. JT2 at 64, 68. Abdulrazzak told the jury that his
computer was not password protected. JT2 at 67. He testified that he had many visitors to his
apartment and that he allowed them to use his computer. JT2 at 65-66. During the rebuttal case,
however, a computer expert called by the prosecution testified that Abdulrazzak’s computer was
password protected. JT3 at 8. Moreover, the evidence established that Abdulrazzak was not a
novice when it came to computers, with his own resume showing that he had “four years of
computer programming experience ” JT3 at 11-12.

'

'

The jury found Abdulrazzak guilty on all 14 counts of possession of child pornography.
JT3 at 103—04. At sentencing, the Honorable Peter Lieberman observed “needless to say, these
are images-that are the most disturbing kind of images that I have dealt with in my professional
capacity as a judge .... [I]n most of the images we have depictions, either videos or photographs,
of very young children being raped. Orally raped, anally raped, vaginally raped.” ST at 27.3
As stated above, Abdulrazzak appealed his conviction to the Supreme Court of South
Dakota, which affirmed summarily.

State v. Abdulrazzak. 828 N.W.2d 547 (S.D. 2013)

(unpublished tabled decision). Abdulrazzak filed a state habeas corpus action raising the same
'

four claims in his petition in 19-CV-4025, plus additional claims about alleged trial counsel
deficiency such as failing to have a computer expert review the evidence. The assigned judge,
Joseph Neiles, conducted an evidentiary hearing in September of 2016, and issued a written
memorandum decision in March of 2017, with extensive findings of fact based on the evidentiary

3 ST refers to the sentencing transcript that was provided to this Court.
6

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 7 of 16 PagelD #: 312

hearing. Judge Neiles ultimately declined to issue a certification of probable cause,to appeal from
the denial of the state petition for writ of habeas corpus, and the Supreme Court of South Dakota
likewise denied to take the appeal.
Abdulrazzak’s sentence was a three-year state penitentiary sentence with two years
suspended for 7 of the 14 counts of conviction, with those sentences to run consecutively. The
sentencing judge, Judge Lieberman, did not pronounce sentence on the remaining seven counts.
The State of South Dakota has a parole system and released Abdulrazzak on parole supervision on
June 25, 2014. 19-CV-4075 at Doc. 8-2. Abdulrazzak apparently was on an Immigration and
Customs Enforcement hold between his prison release on June 25,2014, and until April of 2016.
'

*

Mi at Doc. 8-2. A parole violation report dated October 27, 2016, described Abdulrazzak as
“noncompliant in regards to his sex offender programming, [being] terminated from communitybased sex offender programming,” noting that Abdulrazzak “was in individual sex offender
programming for 5 months and continued to deny his offense.” Doc. 8-2. Abdulrazzak appeared
to be under supervision on parole only from April of 2016 through October of 2016; On March
13, 2017, the Board of Pardons and Parole entered findings and conclusions determining that
Abdulrazzak had violated his parole conditions. Id. at Doc. 8-3.
Abdulrazzak initiated an administrative appeal under SDCL § 1-26 to circuit court,
asserting that the decision of the Board of Pardons and Parole was not supported by the record and
that his due process rights had been violated. KL at Doc. 8-5. Abdulrazzak served the Board of
Pardons and Parole with notice of appeal on May 10, but did not file his notice of appeal with the
state court until May 25,2017. Id. at Docs. 8-6, 8-7. Because the notice of appeal was more than
30 days after service of the Board’s final order, the Board moved to dismiss the appeal as
jurisdictionally barred under SDCL § 1-26-31. The circuit court dismissed the appeal on that basis.

17

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 8 of 16 PagelD #: 313

Mi at Doc. 8-8. Abdulrazzak then appealed to the Supreme Court of South Dakota. Id at Doc. 89. The Supreme Court of South Dakota has not yet issued its ruling.
A. Exhaustion Requirement
- Section 2254 of Title 28 allows a state inmate to file a federal court action to collaterally
attack his conviction and sentence as contrary to the United States Constitution, but the inmate
first must have exhausted through available state courts his Constitution-based claims for relief.
Under § 2254, a federal court cannot grant a writ of habeas corpus to a “person in custodypursuant
to the judgment of a State court,” unless the “applicant has exhausted the remedies available in the
courts of the State,” or unless “there is an absence of available State corrective process” or
“circumstances exist that render, such process ineffective to protect the rights of the applicant.” 28
U.S.C. § 2254(b)(1). “[T]he state prisoner must give the state courts an opportunity to act on his
claims before he presents those claims to a federal court in a habeas petition.” O’Sullivan v.
Boerckel, 526 U.S. 838, 842 (1999). “Only if the state courts have had the first opportunity to
hear the claim sought to be vindicated in a federal habeas proceeding does it make sense to speak
of the exhaustion of state remedies.” Picardv^Cpnnor, 404 U.S. 270,276 (1971). The exhaustion
requirement protects the state courts’ role in enforcing federal law, allows state courts the .
opportunity first to correct possible constitutional defects in state court convictions, and prevents
the potentially “unseemly” disruption of state judicial proceedings through premature federal court
intervention. Rose v. Lundy. 455 U.S. 509, 518 (1982) (quoting Parr v. Burford. 339 U.S. 200,
204(1950)). Under the framework established in Lundy, a federal district court may not issue the
writ of habeas corpus in response to a “mixed” petition containing some exhausted claims and
some unexhausted ones. Id. at 520.

8

Case 4:19-cv-04075-RAL . Document 16 Filed 11/13/19 Page 9 of 16 PagelD #: 314

To determine if a claim has been exhausted, a federal court must determine whether the
petitioner fairly presented the issue to the state courts in a federal constitutional context. Satter v.
Leapley/977 F.2d 1259, 1262 (8th Cir. 1992). “To satisfy exhaustion requirements, a habeas
petitioner who has, on direct appeal, raised a claim that is decided on its merits need not raise it
again in a state post-conviction proceeding.” Id “A claim is considered exhausted when the
petitioner has afforded the highest state court a fair opportunity to rule on the factual and theoretical
substance of his claim.” Ashker v. Leaplev. 5 F.3d 1178, 1179 (8th Cir. 1993).
Fairly presenting a federal claim requires more than simply going through the state courts:
The rule would serve no purpose if it could be satisfied by raising.one claim in the
state courts and another in the federal courts. Only if the state courts have had the
first opportunity to hear the claim sought to be vindicated, in a federal habeas
proceeding does it make sense to speak of the exhaustion of state remedies. .
Accordingly, we have required a state prisoner to present the state courts with the
same claim he urges upon the federal courts.
i

Picard. 404 U.S. at 276. It is also not enough for the petitioner merely to assert facts necessary to
support a federal claim or to assert a similar state-law claim. Ashker, 5 F.3d at 1179. Thepetitioner
must present both the factual and legal premises of the federal claims to thestate court. Smittie v.
Lockhart. 843 F.2d 295, 297 (8th Cir. 1988). “The petitioner must refer to a specific federal
constitutional right, a particular constitutional provision, a federal constitutional case, or a state
case raising a pertinent federal constitutional issue.” Ashker. 5 F.3d at 1179 (citation omitted).
This does not, however, require a petitioner to cite “book and verse on the federal constitution.”
Picard, 4Q4 U.S. at 278. The petitioner must simply make apparent to the state court the
constitutional substance of the constitutional claim. Satter. 977 F.2d at 1262.
Thus, this Court must first determine whether Abdulrazzak has exhausted the claims he
'

'

■

raises in both 19-CV-4025 and 19-CV-4075. Abdulrazzak in fact raised the same four claims in
state court that he now presses in his petition in 19-CV-4025; the amended petition filed in tiis
9

:

Case 4:19-cv-:04075-RAL Document 16 Filed 11/13/19 Page 10 of 16 PagelD #: 315

prior state court habeas corpus action raised as its first four grounds the same arguments contained
in his federal § 2254 petition in 19-CV-4025, Doc. 1. See I9-CV-4025, Docs. 1, 1-7. Thus,
Abdukazzak has properly exhausted his claims in 19-CV-4025..
The same cannot be said regarding the claims in Abdukazzak’s § 2254 petition in 19-CV4075, contesting his parole revocations proceedings. Abdukazzak did not timely file a notice of
appeal and still has pending to the Supreme Court of South Dakota a request for that court to
consider the appeal. Abdukazzak’s failure to timely file a notice of appeal of the Board decision
f ' i

'

in state court is a procedural default that may bar a subsequent § 2254 petition under Coleman v.
Thompson. 501 U.S. 722, 750 (1991) (“In all cases in which a state prisoner has defaulted his
federal claims: in state court pursuant to an independent and adequate state procedural rule, federal
habeas review of the claims is barred .. . .”). Alternatively, the Supreme Court of South Dakota
may consider the appeal or remand the matter to the ckcuit court for it to consider the appeal. In
that case, there plainly is not exhaustion of state court proceedings regarding Abdukazzak’s claim
of impropriety with the revocation of his parole. Either way, Abdukazzak has not exhausted the
claims that he seeks to make in 19-CV-4075, arid those claims must be dismissed by this Court.
B. Merits of §2254 Claims in 19-CV-4025
When a claim has been adjudicated on the merits in a state court as has Abdukazzak’s.
claims in 19-CV-4025, a petition for writ of habeas corpus under § 2254 cannot be granted unless
the state court adjudication:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in fight of the evidence presented in the State court proceeding.

10

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 11 of 16 PagelD #: 316

28 U.S.C. § 2254(d). To show that a state court made an unreasonable determination of the facts,
a petitioner must present clear and convincing evidence that “the state court’s presumptively
correct factual finding lacks evidentiary support.” Trussed v. Bowersox. 447 F.3d 588, 591 (8th
Cir. 2006).
The “contrary to” and “unreasonable application” clauses of § 2254(d)(1) present distinct
questions. Bell v. Cone, 535 U.S. 685, 694 (2002) (citing Williams v. Taylor! 529 U.S. 362, 404OS (2000)). A state court’s legal determination is contrary to federal law if it reaches the opposite
conclusion on a settled question of constitutional law, or if, when confronting materially
indistinguishable facts as a case decided by settled federal, case law, it reaches a different
conclusion. Williams. 529 U.S. at 405. If a state court correctly identifies the controlling legal
principle, but applies it to the facts of a case in an unreasonable manner, then the decision runs
afoul ofthe “unreasonable application” clause of § 2254(d)(1). Id at 407-08. “[A]n unreasonable
application of federal law is different from an incorrect application of federal law.” Harrington v.
Richter, 562.U.S. 86,101 (2011) (quoting Williams. 529 U.S. at 410). This is a-“highly deferential
standard” that is “difficult to meet.” Cullen v-Pinholster. 563 U.S. 170, 181 (2.011) (citations
omitted). Evaluation of a state court’s application of federal law focuses on “what a state court
knew and did ... measured against [the Supreme] Court’s precedents^ of‘the time the state court
rendere[ed] its decision.’” Id at 182 (quoting Lockver v. Andrade. 538 U.S. 63, 71-72 (2003)).
If a claim has been adjudicated on. the merits by a state court,” a federal habeas petitioner must
show the state court’s legal determination was deficient “on the record that was before the state
court.” Id at 185.
Abdulrazzak’s claims in his § 2254 petition in 19-CV-4025 center around alleged
ineffective assistance of counsel and inability to understand an interpreter. The Supreme Court of

11

Case 4:19-cv-04Q75-RAL Document 16 Filed 11/13/19 Page 12 of 16 PagelD #: 317

the United States in Strickland v. Washington. 4661 I S. 668 (1984V set forth a two-part test for a
petitioner to show ineffective assistance of counsel:
First, the defendant must show that counsel’s performance was deficient. This
requires showing that counsel made errors so serious that counsel was not
functioning as the “counsel” guaranteed file defendant by the Sixth Amendment.
Second, the defendant must show that the deficient performance prejudiced the
defense. This requires showing that counsel’s errors were so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable.
Id. at 687. Both prongs of the Strickland test must be satisfied for a claim to succeed, and if a
petitioner fails to make a sufficient showing under one,prong, the court need not address the other.
' Id, at 697; Fields v. United States. 201 F.3d 1025,1027 (8th Cir. 2000). The United States Court
of Appeals for the Eighth Circuit has noted that federal review of ineffective assistance claims in
§ 2254 petitions is to be particularly deferential. In Nooner v.Norris. 402 F.3d 801 (8th Cir. 2005),
the Eighth Circuit stated: “[0]ur review under 28 U.S.C. § 2254 of a state court’s application of
Strickland is twice deferential: we apply a highly deferential review to the state court decision; the
state court, in turn, is highly deferential to the judgments of trial counsel,” Id. at 808. In applying
the Strickland standard, a court “must indulge a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assistance.” Strickland. 466 U.S. at 689. Indeed,
to establish that counsel’s performance was objectively unreasonable, a petitioner must overcome
the presumption that a challenged action of counsel might be considered “sound trial strategy.”
..

Mansfield v. Dormire, 202 F.3d 1018,1022 (8th Cir. 2000) (quoting Strickland, 466 U.S. at 689).
In short, under the Strickland standard, counsel is “strongly presumed to have rendered adequate
assistance and made all significant decisions in the exercise of reasonable professional judgment.”
•i

Cullen. 563 U.S. at 189 (citation omitted). Defense counsel of course cannot be said to be
ineffective simply for failing to perform acts which appear to be futile or fruitless at the time the

. 12

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 13 of 16 PagelD #: 318

decision must be made. Holloway v. United States. 960 F.2d 1348,1356 (8th Cir. 1.992); Dyer v.
United States. 23 F.3d 1424.1426 (8th Cir. 19941.
In order to establish prejudice under the Strickland standard, the petitioner “must show that
there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland. 466 U.S. at 694. “A reasonable probability is
.

-

a probability sufficient to undermine confidence in the outcome.” Williams. 529 U.S. at 391
(citation omitted). That standard “requires a‘substantial,’not just‘conceivable’likelihood of a
different result.” Cullen. 563 U.S. at 189 (quoting Richter. 562 U.S. at 112).
All four of the grounds raised in Abdulrazzak’s § 2:254 petition in 19-CV-4025 have some
element of ineffective assistance of counsel claimed. Grounds one and two of the petition allege
ineffective assistance of counsel in not filing a motion to suppress statements Abdulrazzak made.
Ground three contends that he did not understand his Arabic language translator at trial. Ground
four alleges ineffective assistance in failing to investigate potential alibi evidence of Abdulrazzak
not being near his computer when at least two pornographic images were downloaded. 19-CV4025, Doc. 1. The claim of an inability to Understand the translator, at trial of course goes beyond
ineffective assistance of counsel and implicates Sixth Amendment rights.
Judge Neiles conducted an evidentiary hearing and entered extensive findings of fact oil
Abdulrazzak’s claims. There is nothing ihthe record to suggest that this Court should not defer to
Judge Neiles’s findings of fact.

Indeed, the evidence before Judge Neiles was that, in

Abdulrazzak’s apartment, police officers told him that he was not under arrest and did not have to
speak to the officers. Doc. 9-6. Abdulrazzak himself believed that he was told of not being under
arrest and did not need to speak to the officers. Id Abdulrazzak explained that he still spoke to
the officers because refusing to speak to law enforcement in his home country of Iraq “would be

13

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 14 of 16 PagelD #: 319

problematic.” Id. Abdulrazzak explained that, even though he was told that he did not need to
speak with law enforcement and was not under arrest, Abdulrazzak did not feel that he possessed
that freedom. Id.
Counsel failing to file a motion to suppress Abdulrazzak’s statement within his apartment
is not ineffective assistance of counsel under the circumstances. The warning established in
Miranda v, Arizona. 384 U.S. 436 (1966), only applies when a person is taken into custody for
questioning. United States v. Griffin. 922F.2d 1343,1347 (8th Cir. 19901: United States v. FloresSandoval. 474 F.3d 1142,1146 (8th Cir. 2007). A suspect is in custody when formally arrested or
when that suspect experiences a deprivation of his freedom in a significant way. Griffin. 922 F.2d
at 1347. Whether a suspect is in custody hinges upon whether a “reasonable person in the suspect’s
position would have understood his situation” to be orte of custody; that is, the standard is an
objective one. Id Abdulrazzak was told and recalls that he was told that he was not under arrest
and did not have to speak with the officers. Doc. 9-6. Judge Nieles concluded that Abdulrazzak
did not experience a custodial interrogation and was not in custody. Under the deferential review
of factual findings, this Court cannot conclude otherwise on this record. Under the Strickland
standard, neither prong is met with regard to counsel’s failure to file a motion to suppress. The
motion to suppress would have been denied anyway, and the failure to file the motion does not
indicate such a deficiency in the performance of counsel that he was not functioning as the counsel
guaranteed by the Sixth Amendment See Strickland. 466 U.S. at 687.
Abdulrazzak’s claims about communication difficulty before and during trial do not find
support in the record. Abdulrazzak’s trial counsel testified in front of Judge Neiles that he did not
experience issues communicating with Abdulrazzak in English and indeed did not need an
interpreter in communicating with Abdulrazzak. Doc. 9-6. Abdulrazzak told his trial counsel

14

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 15 of 16 PagelD #: 320

during trial that the interpreter was Egyptian, but counsel understood that Abdulrazzak mistrusted
the interpreter based on his national origin, not that Abdulrazzak could not understand the
translation into Arabic. Doc. 9-6. Judge Neiles concluded that Abdulrazzak failed to show that
any misinterpretation between an interpreter and Abdulrazzak caused a constitutional error to arise.
■

'

‘

•

-

>■

Doc. 9-6. Abdulrazzak has failed to show that his counsel was ineffective by not requesting a
different interpreter. United States v. Dozal-Alvarez. 2011 WL 2670089. at *4 (D. Kan. July 7,
2011).
The final claim that Abdulrazzak makes of ineffective assistance of counsel relates to ah
alleged failure to investigate a potential alibi claim regarding the dates and times when certain
child pornography was being accessed, downloaded, and viewed. In Abdulrazzak’s state habeas
corpus proceeding, Abdulrazzak made additional claims about ineffective assistance of counsel in
failing to consult a computer expert. During the evidentiary proceeding in state court, it came out
that Abdulrazzak’s attorney had in fact consulted a computer expert who had examined
Abdulrazzak’s computer. Doc. 9-6. That expert determined that Abdulrazzak’s computer was
used to access porno graphy immediately upon Abdulrazzak’s arrival to the United States. hi The
expert also found additional images of child pornography on Abdulrazzak’s computer that law
enforcement had overlooked, hi Understandably, trial counsel made a tactical decision not to
\

...

.

‘

'

call that computer expert at trial. It is difficult to imagine introducing testimony that Abdulrazzak
was not near his computer when certain images were downloaded without the use of such a
computer expert. Counsel, of course, is afforded “wide latitude” in making tactical decisions.
Cullen. 563 U.S. at 195 (citation omitted). Moreover, “[t]he decision not to call a witness is a
virtually unchallengeable decision of trial strategy.” United States v. Staples. 410 F.3d 484,488
(8th Cir. 2005) (citation omitted). Abdulrazzak cannot show that it was ineffective assistance of

15

I

Case 4:19-cv-04075-RAL Document 16 Filed 11/13/19 Page 16 of 16 PagelD #: 321

counsel to choose not to attempt to establish through use of a computer expert or otherwise that

I

Abdulrazzak could have been away from his computer when some of the child pornography was

i
I
I
■ft

downloaded. Therefore, none of the grounds raised in Abdulrazzak’s § 2254 petition in 19-CV4025 are viable on their merits. Accordingly, the motion to dismiss should be granted.
III.

1

Conclusion and Order
For the reasons explained above, it is hereby

.
uif

ORDERED, ADJUGED AND DECREED that the Motion to Dismiss, Doc. 8, in 19-CV-

f

4025 is granted. It is further

I
I.
I

ORDERED that the Motion to Dismiss, Doc, 7, in 19-CV*4Q75 is- granted as Abdulrazzak’s

i
I.

claims in that case are not exhausted. It is further

I

ORDERED that Abdulrazzak’s motions for evidentiary hearing, Doc. 13 in 19-CV-4075,

rf:

Doc. 15 in 19-CV-4025, are denied. It is further

II:
i;

ORDERED that Abdulrazzak’s motion to excuse/waive exhaustion, Doc. 4 in 19-CV-

I

4075, is denied, R is further

li
ORDERED that Abdulrazzak’s motion to supplement the records, Doc. 6 in 19-CV-4075,
is granted to the extent that materials that Abdulrazzak has filed in the record are made part of this

4

Court’s CM/ECF record. It is finally

I

ORDERED that Abdulrazzak’s Motion for Injunctive Order, Doc. 14 in 19-CV-4075, is
denied.

l

DATED this 13* day of November, 2019.
BY THE COURT:

<C

f

ROBERTO A. LANGE
UNITED STATES DISTRICT JUDGE

%
I
i:
!■

16

i
r

i

I

Case 4:19-cv-04075-RAL Document 17 Filed 11/13/19 Page 1 of 1 PagelD #: 322
IUNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:19-CV-04075-RAL

Plaintiff,
JUDGMENT OF DISMISSAL
vs.
BRENT FLUKE, ATTORNEY GENERAL FOR
THE STATE OF SOUTH DAKOTA,
I

Defendants.
!

Based on the Opinion and Order Granting Motions to Dismiss and the reasons contained
therein, it is hereby
ORDERED, ADJUDGED AND DECREED that this case is dismissed on its merits under
Rules 54 and 58 of the Rules of Civil Procedure with judgment against Plaintiff and for the
Defendants hereby entering. It is further
ORDERED that no certificate of appealability issues.
DATED this IS * dav of November. 2019.
BY THE COURT:
■ :j i

ROBERTO A. LANGEU
UNITED STATES DISTRICT JUDGE

Case 4:19-cv-04025-RAL Document 24 Filed 12/12/19 Page 1 of 5 PagelD #: 353

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4:19-CV-04025-RAL
4:19-CV-04075-RAL

Petitioner,
vs.
BRENT FLUKE, WARDEN AT MIKE
DURFEE STATE PRISON, AND ATTORNEY
GENERAL FOR THE STATE OF SOUTH
DAKOTA,

OPINION AND ORDER DENYING
PETITIONER’S MOTIONS FOR .
RECONSIDERATION AND GRANTING
PETITIONER’S MOTIONS TO APPEAL
WITHOUT REPAYMENT OF FEES

Respondents.
Petitioner, Haider Salah Abdulrazzak, (Abdulrazzak) filed petitions under 28 U.S.C. §
2254 in two separate cases. 19-CV-4025, Doc. 1; 19-CV-4075, Doc. 1. This Court granted the
respondents’ motions to dismiss and entered judgments in favor of the respondents. 19-CV-4025,
Docs. 17 and 18; 19-CV-4075, Docs. 16 and 17. Abdulrazzak now has filed motions for
reconsideration, notices of appeal, and motions to appeal without repayment of fees in both
cases. 19-CV-4025, Docs. 19, 20,21; 19-CV-4075, Docs. 18, 19,20.
I.

Motions for Reconsideration1
A district court’s decision on a motion for reconsideration rests within its discretion.

Hagerman v. Yukon Energy Corp.. 839 F.2d 407, 413 (8th Cir. 1988). “Motions for
reconsideration serve a limited function: to correct manifest errors of law or fact or to present

1 This Court does not construe Abdulrazzak’s motions for reconsideration under Fed. R. Civ. P
60(b) as successive habeas petitions.
APPENDIX
M

Case 4:19-cv-04025-RAL Document 24 Filed 12/12/19 Page 2 of 5 PagelD #: 354

newly discovered evidence.” Id. at 414. The Federal Rules provide the following regarding
grounds for relief from an order:
On motion and just terms, the court may relieve a party ... from a final judgment,
order, or proceeding for the following reasons: (1) mistake, inadvertence, surprise,
or excusable neglect; (2) newly discovered evidence that, with reasonable
diligence, could not have been discovered in time to move for a new trial under
Rule 59(b); (3) fraud (whether previously called intrinsic or extrinsic),
misrepresentation, or misconduct by an opposing party; (4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged; it is based on an earlier
judgment that has been reversed or vacated; or applying it prospectively is no longer
equitable; or (6) any other reason that justifies relief.
Fed. R. Civ. P. 60(b). In his motions, Abdulrazzak asks for reconsideration because this Court
addressed his two separate habeas claims in one opinion and order. 19-CV-4025, Doc. 19 at 1;
19-CV-4075, Doc. 18 at 1. Abdulrazzak makes no argument that fits any of the grounds for relief
from an order under Fed. R. Civ. P. 60(b). Id. Rather, Abdulrazzak claims that the “two cases
required tow [sic] different standard[s] of review and could prejudice Petitioner.” Id. at 2. This
Court analyzed Abdulrazzak’s habeas petitions in 19-CV-04025 and 19-CV-04075 separately in
its opinion and order. 19-CV-4025, Doc. 17; 19-CV-4075, Doc. 16.
This Court concluded that Abdulrazzak’s claims in 19-CV-4075 were not exhausted and
that his claims in 19-CV-4025 failed on the merits. This Court chose to address the motions to
dismiss in a single opinion and order to have one comprehensive decision. Of course, the facts in
Abdulrazzak’s cases overlapped, as did the legal standards. For instance, exhaustion in state
court is required for all habeas petitions. See 28 U.S.C. § 2254(b)(1); O’Sullivan v. Boerckel.
526 U.S. 838, 842 (1999) (State court must be given the first opportunity to hear a claim.).
Abdulrazzak has not shown sufficient grounds for relief regarding this Court’s opinion and order
addressing his two cases in one decision.

2

;

Case 4:19-cv-04025-RAL Document 24 Filed 12/12/19 Page 3 of 5 PagelD #: 355

Next, Abdulrazzak argues that he did not obtain the full records or transcripts. 19-CV4025,,Doc. 19 at 2-3; 19-CV-4075, Doc. 19 at 2.3. He cites 28 U.S.C. §§ 2247 and 2249
claiming that he did not receive the habeas transcripts and thus “could not submit a brief on the
contrary to clearly establish federal law[.]” Id. Section 2247 makes “transcripts of proceedings
upon arraignment, plea and sentence and a transcript of the oral testimony introduced on any
previous application by or in behalf of the same petitioner” admissible as evidence. Further, 28
U.S.C. § 2249 requires that certified copies of the indictment, plea and judgment be filed with
the court. These transcripts and copies were provided to Abdulrazzak. See 19-CV-4025, Docs. 1
and 9; 19-CV-4075, Docs. 1 and 8. Additionally, on May 20, 2019, this Court received the state
trial court records from the Minnehaha County Clerk of Courts. This Court also received
transcripts for the bond hearing, pretrial conference, jury trial, and sentencing on May 23, 2019.
These transcripts were used and cited to in this Court’s opinion and order addressing the merits
of Abdulrazzak’s claims in 19-CV-4025 and in discussing the lack of exhaustion of claims in
19-CV-4075. 19-CV-4025, Doc. 17; 19-CV-4075, Doc. 18. Abdulrazzak has not shown
sufficient grounds for relief on this matter.
Abdulrazzak’s final argument in his motion filed in 19-CV-4025 asserts that this Court
ruled on his claims without transcripts and did not read his petitions. 19-CV-4025, Doc. 19 at 5.
Specifically, he alludes to over 90 grounds for relief requested in exhibits to his petition in his
first filed case. See 19-CV-4025, Doc. 1. This Court did not address these claims because
Abdulrazzak had only exhausted the first four claims in his state habeas petition. 19-CV-4025,
Doc. 17 at 10. State exhaustion is required, thus, only the four exhausted claims were analyzed.
O’ Sullivan. 526 U.S. at 842; 19-CV-4025, Doc. 17. Abdulrazzak’s motions for reconsideration

3

Case 4:19-cv-04025-RAL Document 24 Filed 12/12/19 Page 4 of 5 PagelD #: 356

are unsupported by the record and he has not established grounds for relief under Fed. R. Civ. P.
60(b). Thus, Abdulrazzak’s motions for reconsideration are denied.

n.

Motions to Appeal without Prepayment of Fees
Abdulrazzak has filed notices of appeal and motions to appeal without prepayment of fees,

with his prisoner trust account. 19-CV-4025, Docs. 20,21 and 22; 19-CV-4075, Docs. 19,20, and
21 . The Eighth Circuit historically has looked to district courts to rule on in forma pauperis motions
for appeal and has held that the filing-fee provisions of the PLRA do not apply to habeas corpus
actions. Malave v. Hedrick. 271 F.3d 1139,1140 (8th Cir. 2001). To determine whether a habeas
petitioner qualifies for in forma pauperis status, the court need only assess (1) whether the
petitioner can afford to pay the full filing fee, and (2) whether the petitioner's appeal is taken in
"good faith." 28U.S.C. § 1915(a)(1), (3).
Abdulrazzak’s prisoner trust account report indicates that he has average monthly deposits
to his prisoner trust account of $77.42 and an average monthly balance of $59.13. 19-CV-4025,
Docket 22. Abdulrazzak’s appeals, though arguably misguided, appear to be taken in good faith.
Abdulrazzak has insufficient funds to pay the $505.00 appellate filing fees, so his motions for
leave to proceed in forma pauperis on appeal are granted.

m.

Order

!
|

Accordingly, it is
ORDERED that Abdulrazzak’s motions for reconsideration—19-CV-4025, Doc. 19; and
19-CV-4075, Doc. 18—are denied. It is further
ORDERED that Abdulrazzak’s motions to appeal without repayment of fees-19-CV4025, Doc. 21; and 19-CV-4075, Doc. 20~are granted. The appellate filing fees are waived.

4

I-

Case 4:19-CV-04025-RAL Document 24 Filed 12/12/19 Page 5 of 5 PagelD #: 357
I
II

DATED this 13* day of December, 2019.

1

BY THE COURT:
R

I

M

li

ROBERTO A. LANGE
UNITED STATES DISTRICT JUDGE

I

E

is
p

*

I

l
I ■

i
■

a

s

1

I

I

IS

fI;

5

i

l

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-3601

Haider Salah Abdulrazzak
Plaintiff - Appellant
v.

Brent Fluke, Warden at Mike Durfee State Prison; Attorney General for the State of South
Dakota
Defendants - Appellees

No: 19-3678

Haider Salah Abdulrazzak
Plaintiff - Appellant
v.

Brent Fluke, Warden at Mike Durfee State Prison; Attorney General for the State of South
Dakota
Defendants - Appellees
Appeal from U.S. District Court for the District of South Dakota - Sioux Falls
(4:19-cv-04075-RAL)
JUDGMENT

Before BENTON, WOLLMAN, and ERICKSON, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the

APPENDIX
N
j

application for a certificate of appealability is denied. The appeal is dismissed. In case number
19-3601, the pending motion for injunction is denied as moot.
April 27, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3601
Haider Salah Abdulrazzak
Appellant
v.
Brent Fluke, Warden at Mike Durfee State Prison and Attorney General for the State of South
Dakota
Appellees
No: 19-3678
Haider Salah Abdulrazzak
Appellant
v.
Brent Fluke, Warden at Mike Durfee State Prison and Attorney General for the State of South
Dakota
Appellees

Appeal from U.S. District Court for the District of South Dakota - Sioux Falls
(4:19-CV-04075-RAL)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
June 19, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

V
APPENDIX

o

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3678
Haider Salah Abdulrazzak
Appellant
v.
Brent Fluke, Warden at Mike Durfee State Prison and Attorney General for the State of South
Dakota
Appellees

Appeal from U.S. District Court for the District of South Dakota - Sioux Falls
(4:19-cv-04025-RAL)
ORDER
Appellant’s motion to compel production of records is denied as this court in not in
possession of the requested transcripts.

August 13, 2020

Order Entered Under Rule 27A(a):
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

APPENDIX
P

Case 4:19-cv-04075-RAL Document 30 Filed 08/25/20 Page 1 of 2 PagelD #: 369

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
HAIDER SALAH ABDULRAZZAK,

4.T9-CV-04075-RAL
4.T9-CV-04025-RAL

Plaintiff,
vs.

ORDER DENYING PENDING MOTIONS

BRENT FLUKE, WARDEN AT MIKE
DURFEE STATE PRISON; and ATTORNEY
GENERAL FOR THE STATE OF SOUTH
DAKOTA,
Defendants.

On August 13, 2019, this Court filed an Opinion and Order dismissing these cases and
entered Judgments. Abdulrazzak filed notices of appeal, but the United States Court of Appeals
for the Eighth Circuit denied certificates of appealability and rehearing en banc and issued its
mandate. Those cases are concluded.
However, on August 20, 2020, in 19-CV-4025, Doc. 31, Abdulrazzak filed Petitioner’s
Motion to Compel the District Court to Produce It’s [sic] Judicial Records. This motion appears
to relate to certain state court records reflected on the CM/ECF system as received by the Clerk of
Court on May 20 and 23, 2019. Abdulrazzak also has filed in 19-CV-4075, Doc. 27, a motion to
reinstate his § 2254 action asserting that it is now exhausted.
Both of Abdulrazzak s cases are dismissed and closed, so this Court can readily deny both
motions. Abdulrazzak may file a new action under 28 U.S.C. § 2254, if in fact his claims are
exhausted and otherwise jurisdictionally proper, but it is improper for this Court to reopen a final
1
APPENDIX
Q

Case 4:19-cv-04075-RAL Document 30 Filed 08/25/20 Page 2 of 2 PagelD #: 370

decision and dismissal after an appeal to the Eighth Circuit. As for Abdulrazzak’s request for his
state court records from this Court at this time, his proper inquiry is to the Clerk of Court on
whether those records have been returned to state court or if Abdulrazzak can make arrangements
to have the records copied and sent to him. This Court’s filings are all public in the CM/ECF
system. This Court sees no good reason to compel itself to produce judicial records. Therefore, it
is hereby
ORDERED that Abdulrazzak’s motion in 19-CV-4025, Doc. 31, is denied without
prejudice to Abdulrazzak arranging with the Clerk of Court for the District of South Dakota on
whether and how certain state court records, if still in the Clerk of Court’s possession, may be
copied and sent to Abdulrazzak. It is further
ORDERED that Abdulrazzak’s motion to reinstate § 2254 action in 19-CV-4075, Doc. 27,
is denied without prejudice to refiling another such petition if claims have been exhausted and are
otherwise jurisdictionally proper.

DATED this 25th day of August, 2020.
BY THE COURT:

ROBERTO A. LANGE
CHIEF JUDGE

2

souin uakota District Court Version 1.1 LIVE DATABASE

Page 1 of 5

HABEAS,CLOSED,PROSE

U.S. District Court
District of South Dakota (Southern Division)
CIVIL DOCKET FOR CASE #: 4:19-cv-04025-RAL
Internal Use Only
Abdulrazzak v. Fluke et al
Assigned to: U.S. District Judge Roberto A. Lange
Case in other court: 8th Circuit, 19-03678
Cause: 28:2254 Petition for Writ of Habeas Corpus (State)

Date Filed: 02/04/2019
Date Terminated: 11/13/2019
Jury Demand: None
Nature of Suit: 530 Prisoner Petitions:
Habeas Corpus - General
Jurisdiction: Federal Question

Petitioner
Haider Salah Abdulrazzak

represented by Haider Salah Abdulrazzak
#04373
MIKE DURFEE STATE PRISON
1412 Wood Street
Springfield, SD 57062
PROSE

V.
Respondent
Brent Fluke

represented by Quincy R. Kjerstad
Attorney General of South Dakota
1302 E. Highway 14
Suite 1
Pierre, SD 57501-8501
(605) 773-3215
Fax: (605) 773-4106
Email: quincy.kjerstad@state.sd.us
LEAD ATTORNEY
A TTORNEY TO BE NOTICED

Respondent
Attorney General for the State of
South Dakota

Date Filed
02/04/2019

represented by Quincy R. Kjerstad
(See above for address)
LEAD ATTORNEY
A TTORNEY TO BE NOTICED

Docket Text

#

1

PETITION for Writ of Habeas Corpus pursuant to 28:2254 filed by
Haider Salah Abdulrazzak (Attachments: # 1 Appendix of Exhibits,
# 2 Ex 1 - Minnehaha County Amended Application for Writ

https://ecf.sdd.circ8.dcn/cgi-bin/DktRpt.pl7456316332188499-L 1 0-

APPENDIX
R

1/28/2020

South Dakota District Court Version 1.1 LIVE DATABASE

Page 2 of 5

4/18/2014, # 3 Ex 2 - Petitioner’s Claims for Relief, # 4 Ex 3 Petitioner's Grounds, # 5 Ex 4 - Appellant's Supreme Court Brief
9/27/2012, # 6 Ex 5 - Supreme Court Judgment of Affirmance, # 7
Ex 6 - 3/17/17 Minnehaha Co. denial of habeas relief # 8 Ex 7 5/23/17 Minnehaha Co. Order denying Petitioner's habeas relief # 9
Ex 8 - Minnehaha County denial of petitioner's application for
certificate of probable cause, # 10 Ex 9 - Ltr from Julie Hofer to
Petitioner 1/23/19, # 11 Ex 10 - Minnehaha County Bench Order
Judgment of Conviction and Penitentiary Sentence 12/20/11) (DJP)
Modified on 2/4/2019 (DJP). (Entered: 02/04/2019)
02/04/2019

2

MOTION to Appoint Counsel by Haider Salah Abdulrazzak. (DJP)
(Entered: 02/04/2019)

02/04/2019

3

New Case LETTER with enclosed docket sheet sent by Clerk's Office to
Petitioner. (DJP) (Entered: 02/04/2019)

02/04/2019
02/12/2019

Filing Fee Received from Haider Salah Abdulrazzak. Fee Amount: $5,
Receipt No.: #SDX400049200. (DJP) (Entered: 02/05/2019)
4

02/12/2019

MOTION for Leave to Proceed in forma pauperis by Haider Salah
Abdulrazzak. (DJP) (Entered: 02/12/2019)
PRISONER Trust Account Report. (DJP) (Entered: 02/12/2019)

04/15/2019

6

(FILED IN ERROR-TO BE FILED IN 19-4075) MOTION to
Excuse/Waive of Exhaustion by Haider Salah Abdulrazzak.
(Attachments: # l Cover letter) (DJP) Modified on 4/25/2019 (DJP).
(Entered: 04/15/2019)

04/18/2019

7

ORDER Requiring Response. Signed by U.S. District Judge Roberto A.
Lange on 4/18/19. (JLS) (Entered: 04/18/2019)

04/18/2019

(Court only) DELIVERING 7 Order to Haider Salah Abdulrazzak via
US Postal Service and docs 1, 2, 4, 6-7 to 2254 MDSP Email Group via
email. (JLS) (Entered: 04/18/2019)

04/25/2019

NOTICE of Filing Error: 6 Motion for Miscellaneous Relief was filed in
error and should be disregarded. Per telephone conversation with
Petitioner, this document should be filed in 19-4075. (DJP) (Entered04/25/2019) '

05/16/2019

8

MOTION to DISMISS by Attorney General for the State of South
Dakota, Brent Fluke. (Kjerstad, Quincy) (Entered: 05/16/2019)

05/16/2019

9

Respondents' ANSWER re 1 PETITION for Writ of Habeas Corpus
pursuant to 28:2254 filed by Attorney General for the State of South
Dakota, Brent Fluke. (Attachments: # 1 Exhibit 1 - Judgment &
Sentence, # 2 Exhibit 2 - Order of Affirmance, # 3 Exhibit 3 Amended Application for Writ of Habeas Corpus, # 4 Exhibit 4 Provisional Writ of Habeas Corpus, # 5 Exhibit 5 - Judge Neiles
Letter, # 6 Exhibit 6 - Findings & Conclusions, # 7 Exhibit 7 - Order
Quashing Amended Application & Provisional Writ, # 8 Exhibit 8 Order Vacating Prior Order Denying Cert of Probable Cause, # 9

https://ecf.sdd.circ8.dcn/cgi-bin/DktRpt.pl7456316332188499-L_l 0-1

8/28/2020

South Dakota District Court Version 1.1 LIVE DATABASE

Page 3 of 5

Exhibit 9 - Order Denying Motion for Certificate of Probable Cause,
# 10 Exhibit 10 - Order Denying Motion for Certificate) (Kjerstad,
Quincy) Modified text and link on 6/20/2019 (JLS). (Entered:
05/16/2019)
05/20/2019

05/23/2019

RECEIVED State trial court records from_Mmnehaha County Clerk of
Courts CRI10-5422 and Civ 13-2004. (Notexhibits or transcripts); The
records are located on Clerk of Court N Drive (MWTJTEnFe'red-"1?^
05/20/2019)
V
10

05/23/2019
i
\
\

MOTION to waive making copies by Haider Salah Abdulrazzak. (DJP)
(Main Document 10 replaced on 5/23/2019) (DJP). (Entered05/23/2019)
RECEIVED following transcripts from Attorney General's Office' re\
CRI 0-5422 State of SD v. Haider Salah Abdul-Razzak: (1) Bond
\
Hearing 9/15/2010; (2) Pretrial Conference 6/21/2011; (3) Jury Trial
Volumes I-III 6/28/2011; (4) Sentencing 12/20/2011. Placed in SiouxJ
Falls Clerks' vault. (DJP) (Entered: 05/23/2019)

05/28/2019

11

ORDER granting 10 Motion. Signed by U.S. District Judge Roberto A.
Lange on 05/28/2019. (LH) Mailed to Petitioner. Modified on 5/28/2019
(SRA). (Entered: 05/28/2019)

05/29/2019

12

MOTION to Extend Deadline by Haider Salah Abdulrazzak. (DJP)
(Entered: 05/29/2019)

05/30/2019

13

ORDER granting 12 Motion to Extend Deadlines. Signed by U.S.
District Judge Roberto A. Lange on 05/30/2019. (LH) Mailed to
Abdulrazzak on 5/30/2019 (SLW). (Entered: 05/30/2019)

06/20/2019

14

RESPONSE to 9 Answer filed by Haider Salah Abdulrazzak.
(Attachments: # i Ex 11 - state court case jury instructions) (DJP)
(Entered: 06/20/2019)

06/20/2019

15

MOTION for Evidentiary Hearing by Haider Salah Abdulrazzak. (DJP)
(Entered: 06/20/2019)

08/29/2019

16

LETTER sent by Clerk's Office to Minnehaha County Clerk of Courts
returning state court records on flash drive (DJP) (Entered: 08/29/2019)

11/08/2019

/

\

(Court only) *** Staff Note: Transcripts from Attorney General's OfficeV
re CRI 0-5422 State of SD v. Haider Salah Abdul-Razzak: (1) Bond
Hearing 9/15/2010; (2) Pretrial Conference 6/21/2011; (3) Jury Trial
,
Volumes I-III 6/28/2011; (4) Sentencing 12/20/2011. Checked out to
RAL chambers. (JLS) (Entered: 11/08/2019)

11/13/2019

17

OPINION AND ORDER granting 8 Motion to Dismiss; denying L5
Motion for Hearing. Signed by U.S. District Judge Roberto A. Lange on
11/13/2019. (SLT) Modified on 11/13/2019 delivered to Haider Salah
Abdulrazzak via USPS (SLT). (Entered: 11/13/2019)

1/13/2019

18

.UDGMENT OF DISMISSAL in favor of Attorney General for the State
of South Dakota, Brent Fluke against Haider Salah Abdulrazzak. Signed

https://ecf.sdd.circ8.dcn/cgi-bin/DktRpt.pl7456316332188499-L 1 0-1

8/28/2020

South Dakota District Court Version 1.1 LIVE DATABASE

Page 4 of 5

by U.S. District Judge Roberto A. Lange on 11/13/2019. (SLT) Modified
on 11/13/2019 delivered to Haider Salah Abdulrazzak via USPS with
Post Conviction Appeal Packet(SLT). (Entered: 11/13/2019)
11/13/2019

B

(Court only) *** Staff Note: Transcripts from Attorney General's Office
re CR10-5422 State of SD v. Haider Salah Abdul-Razzak: (1) Bond
Hearing 9/15/2010; (2) Pretrial Conference 6/21/2011; (3) Jury Trial
Volumes I-III 6/28/2011; (4) Sentencing 12/20/2011. Checked in from
RAL chambers. (JLS) (Entered: 11/15/2019)

12/09/2019

19

12/09/2019

20 NOTICE OF APPEAL as to L8 Judgment by Haider Salah Abdulrazzak..
(SLT) (Entered: 12/09/2019)

12/09/2019

21

MOTION to Appeal without Prepayment of Fees and Declaration by
Haider Salah Abdulrazzak. (SLT) (Entered: 12/09/2019)

12/09/2019

22

PRISONER Trust Account Report. (SLT) (Entered: 12/09/2019)

12/09/2019

23

TRANSMITTAL of Notice of Appeal to 8th Circuit Court of Appeals re
20 Notice of Appeal. (SLT) (Entered: 12/09/2019)

12/12/2019

24

OPINION and ORDER denying J_9 Motion for Reconsideration ;
granting 21 Motion for Leave to Proceed in forma pauperis. Signed by
U.S. District Judge Roberto A. Lange on 12/12/2019. (SLT) Modified on
12/12/2019 delivered to Haider Salah Abdulrazzak via USPS(SLT).
(Entered: 12/12/2019)

12/12/2019

MOTION for Reconsideration re 1_8 Judgment by Haider Salah
Abdulrazzak. (SLT) (Entered: 12/09/2019)

TRANSMITTAL of Subsequent Filing to 8th Circuit Court of Appeals
re 24 Order on Motion for Reconsideration,, Order on Motion for Leave
to Proceed in forma pauperis. (SLT) (Entered: 12/12/2019)

12/13/2019

25

USCA Case Number for 20 Notice of Appeal filed by Haider Salah
Abdulrazzak. USCA Case Number: 19-3678. (TAL) (Entered12/13/2019)

12/13/2019

26

ORDER of USCA directing Clerk of the District Court to forward
portions of the original record not available in an electronic format
through PACER to USCA within 10 days re 20 Notice of Appeal filed
by Haider Salah Abdulrazzak.. (TAL) (Entered: 12/13/2019)

12/17/2019

27

Appeal Record Sent with enclosed State Court Transcripts from CR105422 State of SD v. Haider Salah Abdulrazzak: Bond Hearing
9/15/2010, Pretrial Conference 6/21/2011, Jury Trial Volumes I-III
6/28/2011, Sentencing 12/20/2011; and a CD containing electronic
version of State Civil Case and State Criminal Case sent by Clerk's
Office to Scott Lewandoski. (JLS) (Entered: 12/17/2019)

04/27/2020

2$

JUDGMENT of USCA denying application for certificate of
appealability as to 20 Notice of Appeal filed by Haider Salah
Abdulrazzak. (TAL) Modified text on 8/13/2020 (TAL). (Entered:
08/13/2020)

https://ecf.sdd.circ8.dcn/cgi-bin/DktRpt.pl7456316332188499-L_l_0-l

8/28/2020

South Dakota District Court Version 1.1 LIVE DATABASE

Page 5 of 5

06/19/2020

29

ORDER of USCA denying petitions for rehearing enbanc and by panel
as to 20 Notice of Appeal filed by Haider Salah Abdulrazzak. (TAL)
(Entered: 08/13/2020)

06/26/2020

30

MANDATE from 8th Circuit COA issued in accordance with COA
Judgment as to 20 Notice of Appeal filed by Haider Salah Abdulrazzak.
(TAL) (Entered: 08/13/2020)

08/20/2020

31

MOTION to Compel the District Court to Produce Judicial Records by
Haider Salah Abdulrazzak. (SLT) (Entered: 08/20/2020)

08/25/2020

32

ORDER DENYING PENDING MOTIONS denying 3_1 Motion to
Compel District Court to Produce Judicial Records. Signed by Chief
Judge Roberto A. Lange on 08/25/2020. (LH) (Entered: 08/25/2020)

08/25/2020

(Court only) DELIVERING 32 Order Denying Pending Motions to
Haider Salah Abdulrazzak via US Postal Service. (DLC) (Entered08/25/2020)

https://ecf.sdd.circ8.dcn/cgi-bin/DktRpt.pl7456316332188499-L_l_0-l

8/28/2020

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
HAIDER SALAH ABDULRAZZAK
Petitioner & Appellant,

Case#: 19-3678
Case#: 19-3601

vs.

PETITIONER & APPELLANT
AFFIDAVIT IN SUPPORT OF
PETITION FOR REHEARING.

BRENT FLUKE, Warden at Mike
Durfee State Prison, JASON R.
RAVNSBORG, South Dakota
Attorney General,
Respondents & Appellees,

I hereby certify and sworn under the penalties of perjury that the following
are true and submitted in according to my best knowledge that:
1. My name is Haider Salah Abdulrazzak and I am currently incarcerated at
Mike Durfee State Prison.
A)

Case#: 19-3678

2. That I filed my direct appeal timely to the State Supreme in connect with
my original conviction (Exhibit #4) raising two claims; insufficient evidence to
support the conviction and unusual punishment and the State Supreme Court ruled
on its merits.
3. That I submitted to the state District Court a true and correct copy of the
brief submitted on my behalf to the State Supreme Court as Exhibit# 4 and The

1

APPENDIX
S

State Supreme Court judgment on the merits entered on January 14, 2013, as
exhibit #5.
4. That on May, 30,2013,1 mailed my original Petition of Habeas Corpus
to the state circuit court in connects with my conviction and that petition was
stamped filed on June 18, 2013.
5. That Exhibit #3 submitted within this Petition contained all my 75
grounds for relief submitted to the state circuit court.
6. That upon appointment of Attorney (Julie Hofer/ Minnehaha County
Public Advocate Office; South Dakota), my attorney submitted an amended
petition to the state circuit court, contained 7 claims for relief on April 18, 2013,
and filed with the state court on April 21, 2014. These grounds submitted to the
district court as exhibit #1.
7. That I was paroled out on June 25, 2014.
8. That while I was in immigration custody I start working on my Pro Se
claims for habeas relief and it contained 11 claims for relief submitted to the
district court as Exhibit #2.
9. That after my release from immigration custody and due to interference
from my parole officer (Dusti Werner) and complete denial to the prison law
library, I could not properly finish these claims.

2

10. That I received no assistance from my appointed attorney in preparing
these pro se claims.
11. That the state court held evidentiary hearings on September 20,2016
and December 13, 2016, within which I testified under oath, in connect with my
state habeas proceeding, and it was stenographed by the court reporter.
12. That at no time I ever received a copy of the transcripts in connects
with both September 20,2016, and December 13,2016.
13. That my appointed attorney submitted a timely certificate for probable
cause on May 16, 2017 arguing the exact 7 claims for relief submitted in Exhibit
#12 to the district court. (Compare Exhibit #1 with #12).
14. That on June 27, 2018, an official judgment by the state circuit court
denying the application for the Certificate and a copy of that denial submitted to
the district court as Exhibit #8.
15. That on July 6, 2018, petitioner's appointed attorney submitted timely
Certificate of Appealbility to the State Supreme Court, arguing the exact 7 claims
for relief submitted in Exhibit #1; #12.
16. That on July 16, 2018,1 mailed a letter to the State Supreme Court
asking the Court to consider together my 11 pro se claims for relief submitted in
Exhibit #2 with the claims submitted by my appointed attorney.

3

17. That I never received back the letter as unfilled incomplete or for
whatsoever reason.
18. That my appointed attorney informed me in a letter dated January 23,
2019, that the State Supreme Court has denied my Application for Certificate of
Appealbility.
19. That a copy of that letter and the State Supreme Court judgment were
submitted to the district court as exhibit #9.
20. That upon receive the letter from my attorney together with the State
Supreme Court judgment, I mailed another letter to the State Supreme Court asking
about any updates about my letter mailed to them on July 16, 2018, but never
received response back.
21. That on January 31, 2019,1 mailed my Petition for habeas corpus filed
under §2254 to the District court which docketed as Case #: 4:19-cv-04025-RAL.
B)

Case#: 19-3601

22. That I was re-incarcerated on the allegation of parole violation on
October 27, 2016, and a copy was submitted to the district court as Exhibit #1.
23.

That I received a final parole revocation hearing in front of South

Dakota Board of Pardons & Paroles (the "Board") on March 13m 2017, at which
the Board revoked my Parole.

4

8,2009, rather than other friends. It is therefore, this fact is not supported by the
records and no testimony submitted to support that Fact determination.
Abdulrazzak would submit that he was entitled that the district court to
consider that facts as referred to in his Motion in response to Respondents answer.
See Burden v. Zant, 498 U.S. 433, 437 (1991) (per curium) (Court of appeal's
failure to explain why it ignored state court fact-finding favorable to petitioner
requires reversal of denial of writ and remand).
Abdulrazzak further would submit that it was unreasonable for the district
court to determine he did not exhaust only the firstfour claims. This determination
is not supported by the facts or records. Petitioner submitted Exhibit #1, which
included all the seven claims argued by his appointed attorney all the way to the
State Supreme Court; a fact cannot be denied by Respondents, and now submitted
under the penalty of perjury this fact. (Affidavit # 6, #13, and #15)
Petitioner also submitted his pro se claims as Exhibit #2, which he argued
part during the state habeas hearing and other parts the state judge informed
petitioner he will read them. Petitioner submitted a letter to the State Supreme
Court asking the Court to take in consideration these claims (Affidavit #16, #17).
That letter never came back as unfilled and Petitioner has nothing in his records
that may suggest the State highest Court never took a look at it.

5

24. That on April 21,2017, the Board amended its judgment to include a
missed transaction and a copy was submitted to the district court as Exhibit #2.
25. That I did not receive the Board new opinion until May 2,2017.
26. That I delivered the complete Notice to Appeal the Board judgment to
my unit staff member to be mailed out to the court on May 10,2017. (Exhibit #3)
27. That I submitted to the state court notarized affidavit under the penalty
of the perjury declaring the same as (paragraph 26), signed on June 9, 2017, and
submitted with my motion in opposing the Board motion to dismiss as (Exhibit A)
on June 15, 2017.
28. That at no time the state court ever sends me back my notice to appeal
for whatsoever reason or ever received a correspondence from the court telling me
that my notice to appeal was defective for what so ever reason.
Respectfully Submitted.
Dated this May 22, 2020.

Haider Salah Abdulrazzak, # 04373
Petitioner & Appellant/ Pro Se
Subscribed and sworn to before me this
(Seal)

| LAURA STRATMAN f

HI

NOTARY PUBLIC
_ SOUTH DAKOTA

My commission expires:
My Commission Expires June 10,2025

I!
$

dof May, 2020.
ILML

